<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        TUESDAY, APRIL 13, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:33 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Robert C. Byrd (chairman) 
presiding.
    Present: Senators Byrd, Lautenberg, Voinovich, Cochran, and 
Murkowski.

                    DEPARTMENT OF HOMELAND SECURITY

                            U.S. Coast Guard

STATEMENT OF ADMIRAL THAD W. ALLEN, COMMANDANT

              OPENING STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. The subcommittee will come to order. Today I 
welcome, along with my friend the ranking member, Mr. 
Voinovich, I welcome the Commandant of the Coast Guard, Admiral 
Thad Allen--there's a man on my left named ``Thad''. My wife's 
mother was an Allen, from Floyd County, Virginia. And today I 
welcome the Commandant of the Coast Guard, Admiral Thad Allen, 
to discuss the fiscal year 2011 budget request for the Coast 
Guard.
    In May, the Commandant will conclude his 4-year term as the 
highest ranking member of the Coast Guard, and he has served 
his Nation with distinction.
    Let the record show that there was applause.
    The importance of our Coast Guard cannot--I say cannot--be 
overstated. It is the fifth branch of the military, and it is 
responsible for the safety and the security of our maritime 
interests in U.S. ports, waterways, and on the high seas.
    The Coast Guard is also a critical first responder to 
natural disasters. While the Nation watched--while the Nation 
watched, the Coast Guard rescued over 33,000 people in the 
aftermath of Hurricane Katrina in 2005. This past January, the 
Coast Guard was the first, the first on the scene to evacuate 
over 1,000 U.S. citizens from Haiti following the most 
devastating earthquake ever to strike that country.
    The Commandant of the Coast Guard has made significant 
organizational changes intended to improve Coast Guard business 
practices. In addition, the Commandant has made several changes 
to improve the management of Deepwater, the Coast Guard's 
acquisition program intended to modernize its fleet of ships 
and planes. These changes--these changes, along with 
legislation that this subcommittee, our subcommittee, Senator 
Cochran, initiated in fiscal year 2007 in the Supplemental 
Appropriations Act, have stabilized this previously troubled 
acquisition program.
    Despite these improvements, the Coast Guard is challenged 
with aging fleets, aging assets, a fragile infrastructure, and 
workforce shortfalls. That is why the cuts proposed in the 2011 
President's budget are so puzzling, so puzzling to me. The 
President's budget request for the Coast Guard would cut, c-u-
t, cut, discretionary funding by $71 million--now, that's not 
just chicken feed; that's $71 million--and would reduce 
military strength by 1,112 billets. The Coast Guard is the only 
branch of the military to experience a personnel decrease in 
the President's budget proposal.
    In addition, funding for acquisitions would be cut by 10 
percent. The President's request does include important funding 
for critical acquisitions, such as the fifth national security 
cutter and four fast response cutters. But these proposals are 
overshadowed by plans to decommission five maritime safety and 
security teams, four high endurance cutters, one medium 
endurance cutter, four fixed wing aircraft, and five HH-65 
helicopters.
    Now, I'm troubled. I'm troubled. I'm very troubled that at 
the same time that the Coast Guard faces significant asset gaps 
in meeting existing mission requirements, the Office of 
Management and Budget is proposing to decommission existing 
assets before new assets come on line to replace them. Let me 
say that again: I'm troubled that at the same time that the 
Coast Guard faces significant asset gaps in meeting existing 
mission requirements, the Office of Management and Budget 
(OMB), is proposing to decommission existing assets before new 
assets come on line to replace them.
    Such reductions raise serious concerns to this chairman. 
Let me say that again for emphasis: Such reductions raise 
serious concerns to this chairman. You better believe it.
    The Coast Guard budget appears to be driven by a budget top 
line rather than by the need to effectively address the Coast 
Guard's mission requirements. Now let me say that once more: 
The Coast Guard budget appears to be driven by a budget top 
line rather than by the need to effectively address the Coast 
Guard's mission requirements.
    Will the Coast Guard be able to maintain current capability 
to secure our ports, intercept illegal migrants, interdict drug 
smugglers, and save lives with this proposed funding plan? 
Sadly, and I repeat it: sadly--the answer is no. Two letters, 
the hardest word in the English language: No. The most 
difficult word. So the answer is no, putting our citizens who 
depend on the Coast Guard at risk.
    We will explore these matters in more detail today. 
Following Senator Voinovich's opening remarks, we will hear 
from Admiral Allen. After we hear from the Commandant, each 
member, each member, will be recognized by seniority for up to 
7 minutes for remarks and questions.
    I now recognize Senator Voinovich for any opening remarks 
he may wish to make.

                STATEMENT OF SENATOR GEORGE V. VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman.
    Welcome, Admiral Allen. I share with the chairman of the 
subcommittee that my wife Janet's maiden name was Allan.
    Senator Byrd. Really? Say that again?
    Senator Voinovich. I said my wife's mother's name was 
Allan.
    Senator Byrd. How about that?
    Senator Voinovich. Janet K. Allan, that was my wife's 
maiden name.
    Senator Byrd. My wife's mother's name was Allen. You and I 
may be kinfolk.
    Senator Voinovich. We may very well be.
    Unfortunately, she went from Allan to Voinovich, so she 
used to be called on first and now she's at the end.
    We're pleased that you're here with us this afternoon to 
present your budget request. As the chairman has said at the 
onset, I'd like to note for everyone that you do plan to retire 
after 38 years in the Coast Guard. I think this is quite an 
accomplishment, and I think as Commandant you've been an honest 
broker with the Congress and a great member of the Homeland 
Security team. We thank you from the bottom of our hearts for 
our Nation for the services that you have given our country 
during your years in service.
    The Coast Guard was key to standing up the Department and 
providing continuity at a critical time. As far as I'm 
concerned, the Coast Guard has been the anchor since the 
beginning of the Department of Homeland Security. It is always 
first to respond, as it did following Hurricane Katrina, as the 
chairman has so eloquently mentioned. Recently when a 
devastating earthquake hit Haiti, the Coast Guard was there.
    One of the things that I'd be interested in knowing is the 
impact of your participation there and what it's had on your 
2010 budget. I think so often we compliment the American people 
for their generosity, and we have been generous to Haiti, but I 
think we fail to calculate how much money Haiti has cost to our 
various Federal agencies and how they're able to compensate for 
that and continue to do the other jobs that we have asked them 
to do.
    The fiscal year 2011 budget request for the Coast Guard 
totals $8.5 billion in discretionary spending, $71 million less 
than fiscal year 2010. Quite frankly, $71 million is a lot of 
money, but in terms of an $8.5 billion budget--I'm still having 
people trying to figure out what percentage $71 million is to 
$8.5 billion--it's pretty, pretty, pretty small.
    I am one of those who have been very concerned about 
growing debt and unbalancing our budgets, as far as I can see 
they're unbalanced. When I became Governor of Ohio, we were in 
kind of the same fix we are today, and I had a saying that 
said: ``Gone are the days when public officials will be judged 
on how much they spend on a problem. Public officials will be 
judged on whether they can work harder and smarter and do more 
with less.''
    Admiral Allen, you indicate that strong fiscal discipline 
was applied to your request to make sure you're investing your 
resources in, ``what works, cutting down on redundancy, 
eliminating spending on ineffective programs, and making 
improvements across the board.'' You indicate that the budget 
focuses resources on your highest priority, the continued 
acquisition of new cutters, aircraft, and infrastructure to 
replace the Coast Guard's aging assets.
    Facing, as you mentioned, the Federal debt and skyrocketing 
deficits, I do not dispute what you say. We do need to curb our 
appetites and bring discipline to Federal spending. The 
question is do you feel confident that this budget gets the job 
done for the Coast Guard and for the American people, as the 
chairman has so eloquently stated?
    The request proposes to reduce the Coast Guard's military 
strength by 1,112 billets. Many of my colleagues say this is 
too much, that this reduction in people, along with the 
decommissioning of operational assets and units, will seriously 
injure the capacity and capability of the Coast Guard to 
perform its many and varied missions.
    I think that one of the things that you're going to have to 
do in your testimony and thereafter is to convince us that what 
you're suggesting here makes sense from the point of view of 
the Coast Guard. I have no reason to think that a man that's 
been in the Coast Guard for 38 years would be coming before us 
today and presenting a budget that he doesn't think will get 
the job done. But I think there is some real question here 
about whether or not that's the case. So you'll have to make 
that case.
    Your candor will be greatly appreciated. As you know, it's 
the job of this subcommittee to not just look at your budget 
proposal, but at the proposed allocation of resources among all 
of the components in the Department to determine if we agree 
with the tradeoffs. Again, I'd like to say you probably know a 
whole lot more about that than we do because you are closer to 
it and live with it every day.
    So I look forward to hearing your thoughts today as you 
present your budget.
    Thank you, Mr. Chairman.
    Senator Byrd. Thank you, Senator.
    Admiral Allen, before we begin I want to recognize the 
hardworking employees of the Coast Guard Operations System 
Center, the National Vessel Documentation Center, and the 
National Maritime Center, all of which are in West Virginia. 
These West Virginians are proud to support the Coast Guard's 
many missions.
    Admiral Allen, you're now recognized for your opening 
remarks.

               SUMMARY STATEMENT OF ADMIRAL THAD W. ALLEN

    Admiral Allen. Thank you, Mr. Chairman, Senator Voinovich 
and distinguished members of the subcommittee. Thank you for 
the opportunity to testify today on the Coast Guard's fiscal 
year 2011 budget. I ask that my entire written statement be 
submitted for the record. I have a short oral statement.
    I would like to thank the subcommittee members for your 
continued support of our Coast Guard men and women and for your 
gracious comments here today. Mr. Chairman, on the 12th of 
February I delivered my fourth and final State of the Coast 
Guard Address. I described our current state as ready and 
resilient, and I think this was clearly demonstrated following 
the devastating earthquake in Haiti, as you have noted. One 
hour after the earthquake struck, three cutters were ordered to 
proceed to Haiti. Arriving on scene the following morning, our 
units controlled aircraft movements until the airport tower was 
operational, conducted damage assessments, provided medical 
care and even delivered a baby on the flight deck of a Coast 
Guard cutter. Our aircraft began to evacuate American citizens 
and the most critically injured Haitians.
    As the recovery ramped up, we deployed a reserve port 
security unit and a maritime transportation recovery unit, 
applying lessons learned from Hurricane Katrina. Our forces 
were instrumental in reopening Port au Prince Harbor to allow 
relief supplies to be delivered at a much higher volume via 
container. We partnered with the Department of Defense, State 
Department, Federal Emergency Management Agency, and our 
Homeland Security partners to support the U.S. Agency for 
International Development and our ambassador. At the same time, 
we actively patrolled and monitored departures from Haiti for 
any indication of a mass migration.
    The Coast Guard was the first on scene because our 
operational forces and command and control structure are agile 
and flexible. We are a multi-mission military, whole of 
government, service and agency that is unique to this country 
and the world. We provide tremendous value to the American 
people and the global maritime community.
    Even as we surged into Haiti, other Coast Guard assets were 
breaking ice on the Great Lakes and in New England, medically 
evacuating a heart attack victim 275 miles off San Diego, 
conducting fishing vessel safety patrols in the Bering Sea and 
detaining 12 foreign vessels around the country for violating 
International Maritime Organization conventions.
    Our organizational genius is our operational model that 
emphasizes on-scene initiative and allows our field commanders 
to move resources where they are needed the most. That 
competency will be the key to effective performance as we face 
constrained funding levels.
    As we discuss the fiscal year 2011 budget request, the 
constrained fiscal environment is the overarching issue. In his 
State of the Union Address, the President said: Families across 
the country are tightening their belts; the Federal Government 
should do the same. That sentiment is certainly reflected in 
our 2011 budget.
    In my discussions with Secretary Napolitano, we had to make 
difficult tradeoffs between balancing our current operational 
capacity with the need for new cutters, aircraft, boats, and 
sensors. We made a conscious decision to continue to invest in 
our future. This budget contains nearly $1.4 billion to acquire 
new assets while removing from service aging cutters and 
aircraft that are too costly to maintain. But I would note that 
level is $156 million less than the current year appropriation 
and represents the absolute minimum investment level to sustain 
our future readiness to remain ready and resilient.
    To permit recapitalization at that rate within a fixed top 
line, we also had to limit our operating costs. Accordingly, 
the budget proposes consolidating activities, including the 
regionalization of our maritime safety and security teams and 
decommissioning of aging cutters.
    Mr. Chairman, these were not easy choices, but they were 
necessary, and they result in the reduction of the 1,112 
military personnel that you noted. These reductions will be 
challenging because we have also experienced unprecedented low-
attrition and high-retention rates within our current 
workforce. As a result, we have higher personnel levels this 
year than were forecasted. To manage the workforce this year 
and next year, depending on the funding appropriated, we will 
be looking at a range of programs from reduced accessions to 
waivers for obligated service so that we can manage the 
workforce at the funded level.
    Because our people are our most valuable asset, we will 
carefully study the impacts on our workforce and their families 
before implementing any measures, and we are committed to 
transparency in this process.
    Sir, the bottom line is we have less capacity in 2011 than 
we did in 2010. As I noted earlier, faced with these 
restraints, we will manage risk and allocate resources provided 
to the highest priority, just as we have always done under our 
business model. Recapitalizing the fleet is my top priority. It 
has to be because our future readiness is at stake. Of the 12 
cutters that initially responded to Haiti, 10 suffered severe, 
mission-affecting casualties. With each passing year our 
operating capability erodes, putting our people at risk and 
endangering our ability to execute our statutory 
responsibilities.
    I might add, the earthquake in Haiti was also the first 
test of our modernized support system, and that was highly 
successful. By providing product line support and forward-
deploying support personnel through the chain of command, we 
were able to sustain our Haiti relief efforts while still 
executing other missions, despite the casualties I mentioned.
    To fully implement our modernization, however, I ask the 
Congress to pass authorizing legislation so we can move 
forward. I also ask for your support with our authorizing 
committees. In addition to transforming our maintenance and 
logistics processes, we made significant progress toward 
building an acquisition organization capable of assuming the 
lead systems integrator role, not only for Deepwater but all 
Coast Guard programs.
    The contract for the fast response cutter (FRC) was lauded 
by the Government Accountability Office for its thoroughness, 
and last Friday we held a keel-laying ceremony for our first 
FRC, the Bernard C. Weber. The lessons learned from the 
Bertholf, our first national security cutter, were rolled into 
the Waesche, which will be commissioned on the 7th of May. 
Waesche achieved the authority to operate classified systems 1 
year earlier and at 50 percent fewer trial cards, or 
discrepancies after acceptance, than Bertholf. Although these 
are signs of progress, there is certainly more work to be done.
    I understand the subcommittee's frustration with the 
timeliness of acquisition-related reports. We are working at 
best speed to rectify that situation. We delivered the 2009 
Deepwater expenditure report at the beginning of March, and our 
2010 Deepwater implementation plan is under administration 
review. Mr. Chairman, it is my personal goal to give that 
report to you before I retire as Commandant.
    I fully understand the challenges you face in making 
decisions and the importance of information in these reports. 
You deserve to have this information when you receive your 
budget justifications, and we will continue to work with your 
staffs to meet the reporting requirements.

                           PREPARED STATEMENT

    Mr. Chairman, as I indicated earlier, the state of the 
Coast Guard is ready and resilient, but our fleet is fragile 
and approaching the limits of supportability because of age. We 
must recapitalize our fleet at best speed to ensure we can 
deliver superior service to the Nation. Our guardians deserve 
our best because that's what they give us.
    I'd be glad to answer your questions, sir.
    [The statement follows:]
              Prepared Statement of Admiral Thad W. Allen
                              introduction
    Good afternoon Mr. Chairman and distinguished members of the 
subcommittee. Thank you for the enduring support you have shown to the 
men and women of the United States Coast Guard.
    I am here today to discuss the Coast Guard's fiscal year 2011 
budget request. Before I discuss the details of the request, I would 
like to take this opportunity to explain how I view the principles of 
Coast Guard operations, our most recent actions in Haiti, and the 
current budget environment.
    For over two centuries the U.S. Coast Guard has safeguarded the 
Nation's maritime interests at home and around the globe. The Coast 
Guard saves those in peril and protects the Nation's maritime 
transportation system, resources, and environment. Over the past year, 
Coast Guard men and women--active duty, reserve, civilian and 
auxiliarists alike--continued to deliver premier service to the public. 
They performed superbly in the heartland, in our ports, and while 
deployed at sea and around the globe. They saved over four thousand 
lives and worked closely with interagency partners to ensure resilience 
to natural disasters at home and abroad.
    The Coast Guard's military, multi-mission, maritime assets provide 
agile and adaptable operational capabilities that are well-suited to 
serve the Nation's interests. The national benefit of this multi-
mission character is exemplified at the field level by an individual 
asset's ability to seamlessly, and at times simultaneously, carry out 
distinct yet complimentary functions in the maritime domain--law 
enforcement, national defense, facilitation of maritime commerce, 
maritime safety, environmental protection, and humanitarian response. 
In short, whether in our Nation's intercoastal waterways, ports, 
coastal areas, or maritime approaches, the Coast Guard is here to 
protect, ready to rescue.
    The Coast Guard's ability to conduct surge operations and leverage 
partnerships in response to nationally significant safety, security, or 
environmental threats is critical to disaster recovery and exemplifies 
the resiliency of the Coast Guard and the Department of Homeland 
Security (DHS).
    At a time when ``whole of government'' approaches are critical to 
achieving national objectives across a broad spectrum of strategic 
challenges, it must be recognized that the Coast Guard provides a 
unique and invaluable contribution to maritime safety and security. 
There is no finer example of the ability of the service to respond to 
all threats and hazards than our recent response to the earthquake in 
Haiti. The first Coast Guard asset was on scene in Port-au-Prince less 
than 18 hours after the earthquake. Coast Guard units were the first on 
scene and have been working around the clock with our interagency 
partners to provide humanitarian assistance, evacuate U.S. citizens, 
and help the most seriously wounded. As Commandant, I could not be more 
proud of our response efforts in Haiti. Our actions were guided by the 
Principles of Coast Guard Operations contained in Coast Guard 
Publication One, U.S. Coast Guard: America's Maritime Guardian. All six 
principles were evident during our efforts in Haiti:
  --Clear Objective.--The first cutters and aircraft that arrived in 
        Haiti knew what needed to be done and reconciled their unit's 
        competencies with the opportunities.
  --Effective Presence.--We were already in position to respond quickly 
        to Haiti and our continued presence in the ports and oceans 
        make us critical first responders.
  --Unity of Effort.--We are bureaucratically multi-lingual which 
        helped us quickly integrate our operations within DHS as well 
        as with U.S. Agency for International Development, Department 
        of Defense, and other interagency partners.
  --On-Scene Initiative.--We expect our people to take action without 
        having to wait for orders. That is part of our very make up and 
        what separates us from other entities.
  --Flexibility.--By our nature, we are multi-mission and this greatly 
        enhances our value to the Nation and the global maritime 
        community.
  --Managed Risk.--We allocate the right mix of units and people, as 
        well as leveraging all partnerships, to achieve desired 
        effects.
  --Restraint.--We are sensitive to the broader context of our 
        operations. We understand how our operations impact the public 
        we serve.
    The principles are as relevant today as they were in 1790, and will 
guide our implementation of the initiatives proposed in the fiscal year 
2011 budget.
                        fiscal year 2011 request
    The fiscal year 2011 budget presents the most efficient and 
effective use our resources. We applied strong fiscal discipline to 
make sure that in 2011 we will be investing our resources in what 
works, cutting down on redundancy, eliminating spending on ineffective 
programs and making improvements across the board. We took as our 
highest priority the continued acquisition of new cutters, aircraft, 
and infrastructure. This commitment is vital to our ability to protect, 
defend, and save well into the 21st century.
    The Coast Guard's fiscal year 2011 budget request focuses resources 
on our top budget priority--continued recapitalization of aging assets 
and infrastructure. In addition to recapitalization, the fiscal year 
2011 budget includes pay and standard personnel costs associated with 
the military workforce, training, operating funds for new assets, and 
unit and depot level maintenance. Highlights from our request are 
included in Appendix I.
              recapitalizing to preserve future capability
    The fiscal year 2011 budget continues funding for recapitalization 
of aging assets (e.g. cutters, aircraft, boats, Command, Control, 
Communication, Computers, Intelligence, Surveillance, and 
Reconnaissance, and infrastructure). I cannot emphasize enough that 
recapitalization is critical to preserving future surface, air, and 
shore asset capability; this is an essential investment for the Coast 
Guard. What the Coast Guard builds today will help secure the Nation's 
borders, rescue those in peril, preserve our maritime resources and 
vitality, and protect the environment for decades to come.
    The fiscal year 2011 budget continues the disposition of legacy 
assets where new surface and air assets are coming online. 
Additionally, savings from targeted reallocations of operational 
capacity, efficiencies, and consolidation initiatives are redirected to 
support continued recapitalization of aging assets and infrastructure. 
These capacity shifts could create short-term impacts on Coast Guard 
service delivery if recapitalization schedules are not met, however, 
operational commanders will always allocate resources to meet the 
Nation's highest order maritime safety, security, and stewardship 
needs. As such, monitoring performance and adapting through risk 
management will be a key strategic aim for the Coast Guard in fiscal 
year 2011. In general, long-term Coast Guard performance ultimately 
depends on the pace and stability of future recapitalization, which in 
turn depends on our ability to manage the cost, schedule and quality of 
our acquisition programs.
    Preservation of the Coast Guard's maritime capability through the 
recapitalization of surface and air assets is a strategic imperative 
for DHS and the Coast Guard. The fiscal year 2011 budget continues 
major cutter recapitalization by funding production of the fifth 
National Security Cutter (NSC), refurbishment of another 270-foot 
Medium Endurance Cutter, design of the Offshore Patrol Cutter (OPC), 
and construction of four more Fast Response Cutters (FRCs). Another 
fiscal year 2011 recapitalization priority is the HC-144A Maritime 
Patrol Aircraft (MPA) which will replace the HU-25 Falcon, approaching 
the end of its service life.
    At the requested funding level of $1.4 billion, we will maintain a 
robust and stable capital investment funding profile, which is my 
highest priority for the Coast Guard. I appreciate Congress' continuing 
efforts to coordinate closely with the Coast Guard to support our 
acquisition reform initiatives.
                     delivering value to the nation
    In fiscal year 2011, the Coast Guard will continue to provide 
exceptional service to the Nation. The fiscal year 2011 budget provides 
$87 million more for the operating expenses of Coast Guard, including 
personnel pay and allowances, training and recruiting, operating funds 
for newly acquired assets delivered through Coast Guard 
recapitalization programs, and unit and depot level maintenance. 
Further, the budget annualizes new funding provided by Congress in 
fiscal year 2010 for marine safety, financial management oversight, 
armed helicopters, Biometrics at Sea, the Seahawk Charleston 
Interagency Operations Center, counternarcotics enforcement, and new 
watchstanders. It also enhances deployable law enforcement capacity to 
mitigate emergent terrorism and border security risks.
                         workforce optimization
    In fiscal year 2011, the Coast Guard will sustain previous 
enhancements to the acquisition, financial management, and marine 
safety workforces, and it will continue to promote a diverse and 
competent workforce that can adapt to employ new and improved assets to 
meet evolving mission demands.
    Maintaining the welfare of our workforce remains one of my top 
priorities. The fiscal year 2011 budget supports our need to improve 
military housing. The Coast Guard currently owns 4,020 military housing 
units, the average age of which is over 40 years. Many of the Coast 
Guard's housing assets require recapitalization due to safety and 
habitability issues. The budget funds the recapitalization, 
improvement, and acquisition of 18 military family housing units in 
critical areas where we struggle to provide suitable and affordable 
housing for our members.
    Through strong efforts and a commitment to the workforce, the Coast 
Guard will continue to foster an environment in which every individual 
has opportunity to prosper. In 2009, the Coast Guard launched its 
Diversity Strategic Plan. This plan builds upon the significant 
progress we have achieved to date and provides direction for our 
collective efforts to make the Coast Guard a leader in diversity 
development and a model for the Nation.
                      savings and decommissionings
    The safety and security of the American people are our highest 
priorities, and the Coast Guard will continue to meet national search 
and rescue standards across the country. The Coast Guard will leverage 
available efficiencies to maximize service delivery and provide the 
Nation with the highest possible return on investment. Proposed 
efficiency highlights include small boat logistics management 
improvements, contract in sourcing, headquarters management 
efficiencies, and the consolidation of intelligence fusion centers 
under a single operational command. The fiscal year 2011 budget also 
includes the decommissioning of legacy assets, the restructuring of 
deployable forces, and the realignment of helicopter capacity to the 
Great Lakes region. Four HECs, which have been in service since 
Vietnam, are being recapitalized with newer, more capable NSCs. A new 
regionalized construct for Maritime Safety and Security Teams (MSSTs) 
will enable the Coast Guard to rapidly deploy teams of skilled 
professionals to ports and operating areas across the country based on 
risk and threats as needed. Rotary wing realignment reallocates 
existing highly capable aircraft to the Ninth Coast Guard District 
where they will be more operationally effective in executing assigned 
missions, thus allowing the closure of two seasonal Air Facilities.
                  modernization of business practices
    Coast Guard Modernization is the centerpiece of an overarching 
strategy to transform our legacy command and control structures, 
support systems, and business processes into an adaptive, change-
centric, learning organization. This transition from a geographically 
based structure to a functionally aligned organization enables the 
Coast Guard to optimize sustained mission execution and support, and 
increase alignment within DHS and with our fellow Armed Forces. By 
positioning ourselves to be more flexible, agile, and change-centric, 
we will improve our service to the Nation and enhance every Guardian's 
ability to protect, defend, and save.
    Our recent experience and support of Haiti response and relief 
operations is instructive. As I have noted in the past, the Coast Guard 
operates one of the oldest fleets in the world. Of the 12 major cutters 
assigned to Haiti relief operations, 10 cutters, or 83 percent, 
suffered severe mission affecting casualties, two were forced to return 
to port for emergency repairs, and one proceeded to an emergency dry 
dock. We also had to divert air resources away from evacuation efforts 
to deliver repair parts. This process was coordinated flawlessly 
through our new logistics structure, including the creation of a 
forward-deployed logistics structure at Guantanamo Bay. The response 
was a triumph for our modernized mission support organization. It also 
underscores the condition of our fleet and the responsible actions we 
are taking to decommission those assets with liabilities that outweigh 
their service value.
    We are creating a better Coast Guard through modernization, and the 
recent positive endorsement our efforts received from the National 
Academy of Public Administration reinforces the need to continue moving 
forward. As I enter my final months of service as Commandant, I ask for 
your support to provide the Coast Guard with authority to carry out the 
remainder of our modernization efforts.
                               conclusion
    Regarding our ongoing efforts in Haiti, many have questioned how 
the Coast Guard can do so much so quickly, and I simply reply: ``This 
is what we do.'' Our Guardians are committed to protecting, defending, 
and saving without having to be told to do so. Along with all 
Americans, I am truly inspired by the Coast Guard men and women 
operating in theater, backfilling for deployed units, or providing the 
necessary support to make it all possible. As always, our Guardians are 
here to protect and ready to rescue at a moment's notice. That is who 
we are and why we serve.
    I look forward to working with the subcommittee as we move together 
to achieve our shared goals of a stronger, more capable and effective 
Coast Guard across all of our safety, security and stewardship 
missions. Again, thank you for the opportunity to testify before you 
today. I am pleased to answer your questions.
              appendix i--fiscal year 2011 budget request
    The fiscal year 2011 President's budget continues funding for 
recapitalization of aging assets (e.g., cutters, aircraft, boats, and 
command, control, computer, communications, intelligence, surveillance, 
and reconnaissance (C4ISR) and infrastructure. Recapitalization is 
vital to preserving future surface, air, and shore asset capability, 
and is an essential investment for the Nation. In addition to 
recapitalization, the fiscal year 2011 President's budget includes pay 
and standard personnel costs associated with the military workforce, 
training, operating funds for new assets, and unit and depot 
maintenance.
             fiscal year 2011 initiatives and enhancements
Recapitalize Operating Assets and Sustain Infrastructure
            Surface Assets--$856.0 Million, 0 FTE
    The budget provides $856.0 million for surface asset 
recapitalization or enhancement initiatives: production of National 
Security Cutter (NSC) #5; continued analysis and design of the Offshore 
Patrol Cutter (OPC); production of Fast Response Cutters (FRC) #9-12; 
production of Cutter Small Boats--one Long Range Interceptor and one 
Short Range Prosecutor; and operational enhancement of three Medium 
Endurance Cutters at the Coast Guard Yard through the Mission 
Effectiveness Project.
            Air Assets--$101.0 Million, 0 FTE
    The budget provides $101.0 million for the following air asset 
recapitalization or enhancement initiatives: production of HC-144A 
Maritime Patrol Aircraft #15; HH-60 engine sustainment and avionics, 
wiring and sensor upgrades for eight aircraft; HC-130H avionics and 
sensor development and testing, and the acquisition of components for 
two center wing box replacements; and HC-C130J fleet introduction.
            Asset Recapitalization--Other--$155.5 Million, 0 FTE
    The budget provides $155.5 million for the following equipment and 
services: continued development of logistics capability and facility 
upgrades at shore sites where new assets will be homeported; and design 
and development of C4ISR-integrated hardware and software systems for 
surface and air assets.
            Response Boat Medium (RBM)--$42.0 Million, 0 FTE
    The budget provides $42 million to order 10 boats to replace the 
aging 41-foot utility boat and other non-standard boats with an asset 
more capable of meeting the Coast Guard's multi-mission requirements.
            Rescue 21--$36.0 Million, 0 FTE
    The budget provides $36.0 million to complete deployment at Sectors 
Detroit, MI; Los Angeles/Long Beach, CA; Honolulu, HI; San Juan, PR; 
Guam; and Buffalo, NY; and continue deployment at Sectors Lake Michigan 
and Sault Sainte Marie, MI; Ohio River Valley, KY; Upper Mississippi 
River, MO; and Lower Mississippi River, TN. The Rescue 21 system is the 
Coast Guard's primary communications, command, and control system for 
all inland and coastal missions.
            Shore Facilities and Aids to Navigation (ATON) Recap 
                    Projects--$69.2 Million, 0 FTE
    The budget provides $69.2 million to recapitalize shore 
infrastructure for safe, functional, and modern shore facilities that 
effectively support Coast Guard assets and personnel. fiscal year 2011 
funding supports:
  --Survey and Design--Planning and engineering of out-year shore 
        projects.
  --Minor Shore Projects--Completion of minor shore construction 
        projects that are less complex but enable the Coast Guard to 
        respond to critical operational and life safety issues 
        associated with degraded shore facilities.
  --ATON Infrastructure--Improvements to short-range aids and 
        infrastructure.
  --Chase Hall Barracks--Continued renovations to the Coast Guard 
        Academy's Chase Hall by modernizing and improving habitability 
        of the cadet barracks.
  --Newport, RI Pier--Improving an existing pier face to provide over 
        800+ linear feet of moorings for Coast Guard Cutters Juniper, 
        Willow, and Ida Lewis, and creates the necessary pierside 
        support facilities.
  --Aviation Technical Training Center--Building upon efforts funded 
        under the American Recovery and Reinvestment Act (ARRA) to 
        rehabilitate Thrun Hall at the Aviation Technical Training 
        Center in Elizabeth City, NC.
            Housing--$14.0 Million, 0 FTE
    The budget provides $14.0 million for the construction, renovation, 
and improvement of Coast Guard military family housing. The Coast Guard 
currently owns 4,020 military housing units, the average age of which 
is over 40 years. Funding is critical to improving Coast Guard-owned 
housing facilities, enhancing the quality of life of the military 
workforce and their families, and reducing the overall shore 
infrastructure maintenance backlog.
            Military Workforce--$86.2 Million, 0 FTE
    The budget provides $86.2 million to maintain parity of military 
pay, allowances, and healthcare with the Department of Defense. As a 
branch of the Armed Forces of the United States, the Coast Guard is 
subject to the provisions of the National Defense Authorization Act, 
which includes pay and personnel benefits for the military workforce. 
The Coast Guard's multi-mission military workforce is unique within 
DHS. This request includes funding for basic allowance for housing, 
childcare benefits for Coast Guard members, permanent change of station 
costs, and military healthcare costs.
            Shore Facilities--$4.3 Million, 0 FTE
    The budget provides $4.3 million for the operation and maintenance 
of acquisition, construction and improvement shore facility projects 
scheduled for completion prior to fiscal year 2011. Funding is required 
for daily operating costs for energy, utility services, grounds 
maintenance, routine repairs, and housekeeping. These costs also 
include the operation and maintenance of the ATON's day/night/sound/
electronic signal, power system, and support structure.
            Response Boat-Medium (RB-M) Maintenance--$2.0 Million, +5 
                    FTE
    The budget provides $2.0 million for fiscal year 2011 operations 
and maintenance costs associated with delivery of 18 RB-Ms. This 
request also includes electrical support personnel and associated 
personal protective equipment to support the platform's increased 
capability.
            Rescue 21 Follow-on--$7.1 Million, +1 FTE
    The budget provides $7.1 million for follow-on funding to operate 
Rescue 21, the Coast Guard's primary system for performing the 
functional tasks of command, control, and communications in the inland 
and coastal zones for Coast Guard operations including search and 
rescue and maritime security missions. This funding will support five 
distinct cost categories that sustain Rescue 21: equipment operation 
and maintenance, circuit connectivity, property and power, training, 
and technology refresh.
            Rescue Swimmer Training Facility (RSTF)--$1.9 Million, +7 
                    FTE
    The budget provides $1.9 million for the operation and maintenance 
of the RSTF, its Modular Egress Training Simulator, and recurring 
training costs. The RSTF will directly support Aviation Survival 
Technician (rescue swimmer) training and qualification standards, as 
well as egress certification and recertification for air crews and some 
small boat crews.
            Surface and Air Asset Follow-on--$62.5 Million, +173 FTE
    The budget provides a total of $62.5 million to fund operations and 
maintenance of cutters, boats, aircraft, and associated subsystems 
delivered through major cutter, aircraft, and associated C4ISR 
acquisition efforts. Funding is requested for the following assets:
  --NSC--Shoreside logistics support and maintenance funding necessary 
        for three NSCs located in Alameda, CA; unit operations and 
        maintenance funding for the third NSC scheduled for delivery in 
        fiscal year 2011.
  --Training System Personnel--Funding and training personnel for the 
        NSC C4ISR training suite at Training Center Petaluma, CA.
  --FRC--Operating and maintenance funding for the first five FRCs 
        scheduled for delivery in fiscal year 2011 and homeported in 
        Miami, FL; shore-side maintenance personnel needed to support 
        FRCs being delivered in fiscal year 2011; and, personnel to 
        operate and maintain the seventh and eighth FRCs scheduled for 
        delivery early in 2012.
  --Transition Aviation Training Center Mobile and Air Station Miami to 
        HC-144A Maritime Patrol Aircraft (MPA)--Funding to support a 
        change in aircraft type, allowance, and programmed utilization 
        rates at Aviation Training Center Mobile, AL and Air Station 
        Miami, FL.
  --HC-144A MPA--Operating and maintenance funding and personnel for 
        aircraft #12 and personnel for aircraft #13; logistics support 
        personnel and maintenance funding for the HC-144A product line.
  --Armed Helicopters for Homeland Security Follow-on--Recurring funds 
        to maintain Airborne Use of Force (AUF) Kit ``A'' equipment for 
        22 HH-65C helicopters.
  --C4ISR Follow-on--Funding to maintain new high-speed Ku-band 
        satellite communications systems installed on major cutters 
        prior to fiscal year 2011.
   fiscal year 2011 efficiencies, reallocations, and decommissionings
    The fiscal year 2011 President's budget includes efficiencies, 
consolidation initiatives, decommissionings, and operational 
restructuring. Savings associated with targeted efficiencies and 
consolidation initiatives have been redirected to support operations 
and maintenance and recapitalization priorities.
            Maritime Safety and Security Teams-- -$18.2 Million, -196 
                    FTE
    In fiscal year 2011, Maritime Safety and Security Teams (MSSTs) 
Anchorage, Kings Bay, New Orleans, New York, and San Francisco will be 
decommissioned. The seven remaining MSSTs will provide the same 
geographic coverage by deploying regionally to mitigate the highest 
prevailing port security risks in the Nation's critical ports.
    MSSTs will continue to escort vessels, patrol critical 
infrastructure, perform counter terrorism activities, enforce laws 
aboard high interest vessels, and respond to unanticipated surge 
operations (e.g., mass migration response, hurricane response, 
terrorist attack, etc.) consistent with regional threats.
    As part of this initiative, the Coast Guard will reinvest partial 
MSST savings in the Law Enforcement Detachment (LEDET) program to 
address increased demand for LEDET services in support of Coast Guard 
missions. The fiscal year 2011 investment increases the roster of all 
17 existing LEDETS from 11 to 12 members per team, and creates one new 
12-person LEDET. LEDETs are high return-on-investment national assets 
that augment defense operations in support of combatant commanders and 
counter drug operations in the Caribbean and Eastern Pacific.
            High Endurance Cutters-- -$28.2 Million, -383 FTE
    In fiscal year 2011, the Coast Guard will decommission four High 
Endurance Cutters (HEC): RUSH, JARVIS, CHASE, and HAMILTON. The average 
age of the HEC fleet is 42 years. A disproportionate share of the depot 
level maintenance budget is being used to sustain these aging assets. 
With two NSCs anticipated to be operational by 2011, the Coast Guard is 
positioned to begin decommissioning these legacy assets.
            Medium Endurance Cutter-- -$2.8 Million, -43 FTE
    In fiscal year 2011, the Coast Guard will retire the Medium 
Endurance Cutter Acushnet. Acushnet is well past its useful service 
life and has unique systems that are costly and difficult to sustain.
            HU-25 Aircraft-- -$7.7 Million, -32 FTE
    In fiscal year 2011, Coast Guard will decommission four HU-25 fixed 
winged aircraft. Three aircraft will be immediately replaced by the new 
HC-144A aircraft. The fourth HU-25 will be retired from service at 
Coast Guard Air Station (A/S) Cape Cod, MA, reducing aircraft allowance 
at this station from four to three until a replacement HC-144A arrives. 
Three aircraft provide the minimum manning required to maintain 24/7 
Search and Rescue capability.
            Rotary Wing Capacity-- -$5.5 Million, -34 FTE
    In fiscal year 2011, the Coast Guard will realign rotary wing 
capacity to provide four medium-range HH-60 helicopters to the Great 
Lakes region. To facilitate this delivery of enhanced multi-mission 
capability, two HH-60 helicopters from Operations Bahamas Turks and 
Caicos, and two HH-60s from Maritime Security Response Team (MSRT) in 
Chesapeake, VA will be permanently relocated to Coast Guard Air Station 
Traverse City, MI. Upon arrival of the four HH-60s, five HH-65 
helicopters presently stationed at Air Station Traverse City will be 
removed from active service.
    The HH-60 helicopter has the added capability over the HH-65 to 
operate in extreme cold weather conditions, including icing, which 
persist in the Air Station Traverse City area of responsibility 
approximately 5 months per year. In addition, the HH-60 helicopter has 
double the flight time endurance of the HH-65 providing additional 
operational range for search and rescue (SAR) missions and security 
patrols in the Great Lakes region and along the northern maritime 
border. Enhancing the operational capability of Air Station Traverse 
City helicopters will also enable the closure of two seasonal Coast 
Guard Air Facilities at Muskegon, MI and Waukegan, IL while still 
meeting SAR program response requirements.

                  PRIORITIES IF FUNDING WERE AVAILABLE

    Senator Byrd. I thank you for your excellent statement, 
Admiral. My instinct tells me--and I have pretty good instincts 
that when it comes to this budget, you were dealt a bad hand by 
OMB, the Office of Management and Budget. You were told to do 
the best you could with an inadequate top line. You did so. 
But, as Popeye used to say, ``I am what I am and that's all I 
am.'' This budget is what it is and that's all it is.
    I need your candid views, on the consequences of the 
proposed budget. I'm troubled by the budget request to reduce 
Coast Guard military strength by 1,112 positions. The Coast 
Guard is the only branch of the military to see its workforce 
decreased in the President's budget. But--I repeat the 
proposition--but you have said publicly that the Coast Guard 
could grow by as much as 2,000 positions, by as much as 2,000 
positions per year, to meet operational demands.
    I understand that tough choices had to be made because of 
the administration's budget top line for the Coast Guard. But--
I repeat that conjunction--but if the funding were available, 
how, how would you allocate the 1,112 billets and what could 
those Coast Guard personnel accomplish?
    Admiral Allen. Mr. Chairman, if funding were to be made 
available against that deficit we had right now, my priorities 
would be to retain the five H-65 helicopters that are currently 
offset in the budget, to restore four of the marine safety and 
security teams and two of the high endurance cutters, to 
recover those operating hours pending delivery of new national 
security cutters to replace them and to request critical 
funding for maintenance of our aircraft and our cutters and our 
small boats.

                      OPERATING WITH FEWER CUTTERS

    Senator Byrd. The Coast Guard estimates that with its 
current resources it is unable to provide 6,840 cutter hours 
necessary to secure our ports, interdict illegal migrants, 
seize drugs, and save lives. And yet this budget would 
decommission four high endurance cutters and replace them with 
only two in fiscal year 2011. Let me repeat that: The budget 
would decommission four high endurance cutters and replace them 
with only two in fiscal year 2011.
    In 2009, these cutters that you plan to decommission 
contributed to the removal of 35,100 pounds of cocaine and 400 
pounds of marijuana, with an estimated value of $493 million. 
In addition, one of the cutters that you propose to 
decommission served admirably in response to the Haiti 
earthquake.
    If we decommission four cutters as OMB has proposed, the 
mission hour gap--let me repeat that--the mission hour gap 
would increase from 6,840 to 11,790 hours, almost double.
    Are the existing ships capable of serving another 2 years? 
If Congress were to provide sufficient funds to decommission 
ships only when new assets are available to replace them, what 
additional missions would be undertaken? Let me repeat that: If 
Congress were to provide sufficient funds to decommission ships 
only when new assets are available to replace them, what 
additional missions would be undertaken?
    Admiral Allen. Thank you for the question, chairman. The 
budget as submitted would retire two cutters without 
replacement. You are correct in that statement. The way the 
Coast Guard would handle those reductions would be, frankly, 
assumed risk and managed risk. We do that right now because we 
have multi-mission cutters that can't be everywhere, and we go 
through a risk management process in the current allocation of 
our resources. That would just become more acute and will put 
the onus on our field commanders to establish the highest 
priority to apply the cutter hours that they have.
    Generally, our high endurance cutters conduct directed 
patrol missions in certain mission areas, for instance, long-
range missions down South in drug interdiction; long-range 
missions in the middle of the Pacific for illegal, unregulated, 
unreported fishing; fishing enforcement in the Bering Sea--in 
places where the high endurance cutters' sea-keeping ability 
and their endurance allow them to stay on scene.
    So the mission areas that will be most impacted would be 
drug interdiction, fisheries enforcement in the 17th District 
and in the 14th District and illegal, unreported and 
unregulated fishing.
    Senator Byrd. Thank you.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.

           DECOMMISSIONING MARITIME SAFETY AND SECURITY TEAMS

    A large percentage of the reductions in personnel, 400 
full-time positions, come from the decommissioning of maritime 
safety and security teams, the MSSTs. These teams were designed 
to deter potential terrorists, respond to security-related 
incidents, and assist with port vulnerability assessments. 
These teams which your budget proposes to reduce were created 
by the Maritime Transportation Security Act adopted unanimously 
by the Senate in 2002.
    When we passed that legislation, there was an anticipation 
that these would be needed in terms of the security of our 
Nation. Has it been the experience of the Coast Guard that that 
vulnerability or that need in effect did not materialize and 
that these folks are no longer needed to get the job done, or 
in the alternative that those that remain will be able to 
handle the work?
    Admiral Allen. Sir, the proposal to decommission the Marine 
Safety and Security Teams (MSSTs) was not based on any 
significant change in the threat or the vulnerability 
situation. There was an effort to achieve economies and 
regionally provide deployable specialized forces in addition to 
our fixed-base, search-and-rescue stations and aviation 
stations.
    MSSTs are what we call a deployable specialized force. They 
are capable of moving anywhere in the country, anywhere in the 
world that we need them. Although they are based in one 
particular geographical area, they are actually deployed to 
other places in the country.
    So what we are doing is we're expanding the regional 
coverage of the remaining MSSTs in the same manner as operating 
with less cutter hours when you have less deployable MSST days. 
You're just going to manage risk and allocate what you have to 
the highest priority, sir.
    Senator Voinovich. Well, the fact of the matter is that 
you're confident that the remaining teams that are in place can 
continue to get the job done?
    Admiral Allen. They will be able to respond. If you have--
for instance, we are proposing to remove a team from New York 
and keep one in Boston, which is very close to a field where 
they can be airlifted. There will be a delta or a difference in 
the time to respond to those areas based on the distance they 
have to travel, but there will be a team capable of responding 
in each region, sir.
    Senator Voinovich. I'd be interested to know since this 
group was set up, the number of incidents where they were 
involved. It may not be something you can talk about publicly, 
but even if it's something that's confidential, I'd certainly 
like to know just how much action those teams have had during 
this period of time and what's the current threat assessment.
    Admiral Allen. Yes, sir. We can give you a breakdown on the 
days deployed and where they're deployed and the mission that 
they were deployed upon for all teams. We can give that to you 
for the record, sir.
    [The information follows:]

    MSST ANCHORAGE: Deployed elements 12 times for 124 days to the 
following locations: Anchorage, AK (3 times); Tacoma, WA (2 times); 
Seattle, WA; Juneau, AK; San Francisco, CA; Jacksonville, FL; Beaumont, 
TX; Portland, OR; and Prudhoe Bay, AK. Missions included: VPOTUS 
Protection, High Interest Vessel Boardings, Military Outloads, High 
Value Unit Escorts, PWCS, and Ferry Escorts.
    MSST SEATTLE: Deployed elements 16 times for 214 days to the 
following locations: Tacoma, WA (4 times); Seattle, WA (9 times); 
Corpus Christie, TX; San Francisco, CA; including 136 days in 
Guantanamo Bay, CU. Missions included PWCS: Ferry Escorts, Critical 
Infrastructure Patrols, Military Outloads, and Harbor Security for 
Guantanamo Bay. Additionally K9 teams supported local efforts for 16 
missions in the Seattle Metro Region such as Ferry Sweeps and Terminal 
Security.
    MSST SAN FRANCISCO: Deployed elements 12 times for 189 days to the 
following locations: San Francisco, CA (7 times); Seattle, WA (2 
times); Jacksonville, FL; San Diego, CA; CENTCOM. Missions included: 
High Value Unit Escorts, PWCS, Military Outloads, Flood Relief, and 
Visit Board Search & Seizure.
    MSST SAN PEDRO: Deployed elements 18 times for 153 days to the 
following locations: San Francisco, CA (2 times); Los Angeles, CA (9 
times); Miami, FL; Australia; Corpus Christi, TX; Tacoma, WA; and 
Seattle, WA (2 times); San Diego, CA. Missions included: Fleet Week; 
Republican Governor's Convention; Rose Bowl; PWCS: High Capacity 
Passenger Vessel Escorts, Critical Infrastructure Patrols, Safety/
Security Zone Enforcement; High Interest Vessel Boardings and 
International Underwater Harbor Security Trial.
    MSST SAN DIEGO: Deployed elements 21 times for 155 days to the 
following locations: San Diego, CA (13 times); Tacoma, WA; Seattle, WA 
(2 times); Charleston, SC; Honolulu, HI (2 times); Pittsburgh, PA; and 
Yokosuka, JA. Missions included Training, Counter Illicit Trafficking, 
PWCS: High Capacity Passenger Vessel Escorts, Critical Infrastructure 
Patrols, Safety/Security Zone Enforcement; High Interest Vessel 
Boardings, G20 Summit and Defense Readiness Exercise Support.
    MSST HONOLULU: Deployed elements 34 times for 321 days to the 
following locations: Honolulu, HI (18 times); Jacksonville, FL (3 
times); Tacoma, WA (2 times); Kahului, HI; Kona, HI; Pago Pago; Guam; 
Saipan; San Diego, CA; Corpus Christie, TX; Hilo, HI; Seattle, WA; and 
Bellingham, WA. Missions included: Critical Infrastructure Patrols, 
High Interest Vessel Boardings, Military Outloads, High Value Unit 
Escorts, Counter Illicit Trafficking, PWCS, and High Capacity Passenger 
Vessel Escorts.
    MSST KINGS BAY (91104): Deployed elements 19 times for 227 days to 
the following locations: Jacksonville, FL (10 times); St Petersburg, 
FL; Tacoma, WA (2 times); New Orleans, LA; Savannah, GA; Hampton Roads, 
VA; Port Canaveral, FL; Seattle, WA; Memphis, TN; including 5 days 
dedicated support to UNITAS (an annual multilateral maritime exercise 
for The Americas). Missions included PWCS, Security Escorts to High 
Value Units, Military Outload Protection, and Naval Protection Zone 
Enforcement.
    MSST GALVESTON: Deployed elements 19 times for 365 days to the 
following locations: Washington, DC; Williamsburg, VA; San Diego, CA; 
Bellingham, WA (2 times); New Orleans, LA; Kings Bay, GA (2 times); 
Houston, TX (2 times); Corpus Christi, TX (2 times); Port Arthur, TX; 
Seattle, WA; Lackland AFB, TX; Boston, MA; New York, NY; San Francisco, 
CA; including 108 days dedicated support to CENTCOM and 25 days for the 
Presidential Inauguration. Missions included: PWCS, Security Escorts to 
High Value Units, Military Outload Protection, and Naval Protection 
Zone Enforcement.
    MSST NEW ORLEANS: Deployed elements 14 times for 262 days to the 
following locations: New York, NY; Seattle, WA; Delaware Bay; St 
Petersburg, FL; Jacksonville, FL (4 times); Tacoma, WA; Machinac 
Island, MI; Long Island, NY; New London, CT, Hampton Rd, VA (2 times). 
Missions included: POTUS Security, PWCS, NSSE, Ferry Escorts, Security 
Escorts to High Value Units, Military Outload Protection, and Naval 
Protection Zone Enforcement.
    MSST BOSTON: Deployed elements 15 times for 102 days to the 
following locations: Boston, MA (8 times); New York, NY (3 times); 
Seattle, WA; Jacksonville, FL; Hampton Roads, VA, including 90 days to 
CENTCOM and 16 days to UNITAS. Missions included PWCS, Ferry Escorts, 
Security Escorts to High Value Units and Military Outloads.
    MSST NEW YORK: Deployed elements 20 times for 175 days to the 
following locations: New York, NY (11 times); Seattle, WA; Delaware 
Bay; St Petersburg, FL; Jacksonville, FL (2 times); Tacoma, WA; 
Machinac Island, MI; Long Island, NY; New London, CT; including 4 days 
dedicated to Super Bowl security in Tampa, FL. Missions included POTUS 
Security, PWCS, NSSE, Ferry Escorts, Security Escorts to High Value 
Units, Military Outload Protection, and Naval Protection Zone 
Enforcement.
    MSST MIAMI: Deployed elements 33 times for 273 days to the 
following locations: Key West, FL (3 times); Homestead, FL (4 times); 
Norfolk, VA (2 times); Miami, FL (10 times); Corpus Christi, TX (2 
times); Washington, DC; Tampa, FL; Memphis, TN; Ft. Lauderdale, FL (2 
times); Cape Cod MA; Jacksonville, FL (2 times); Chesapeake, VA; New 
York, NY; Pittsburgh, PA including 21 days to Cameroon, Africa and to 
CENTCOM. Missions included PWCS, NSSE, Security Escorts to High Value 
Units, Military Outload Protection, and Naval Protection Zone 
Enforcement.

                          HELICOPTER COVERAGE

    Senator Voinovich. I had a visit from Admiral Neffenger, 
who has been in Cleveland, and gotten to know him, and I want 
to say that the folks that you had at the 9th District have 
done a pretty darn good job and we're glad to have them in 
Cleveland in the Celebrezze Building, where I have my office, 
so I've gotten a chance to get to know them.
    He tried to explain the issue of decommissioning some of 
the helicopters in the Great Lakes, four or five of them that 
are available during the summer months, like 3 or 4 months of 
the year, but that for all intents and purposes after that 
period is over aren't that significant because of the weather 
conditions, etcetera, and that by bringing in two of these 
souped-up helicopters, that even though it might take a little 
longer to get to wherever it is they've got to get, that they 
would be available 12 months of the year.
    I'd like you to share with me your observations in regard 
to that. In other words, it gets into the issue of why we have 
these helicopters during 4 months. How often are they called 
upon, and if they can't get there say within 15 minutes what 
difference would that make? I understand that, under the budget 
proposal, even though it takes them longer, when they get 
there, because of the fuel capacity, the Blackhawk helicopters 
are more versatile and they can be more helpful in the 
situation.
    So I'm getting at the need and if the substitute makes 
sense, because I'm sure the people from Michigan are unhappy 
about closing down one of those bases in Michigan.
    Admiral Allen. Yes, sir. The laydown we have right now is 
an air station in Traverse City, MI, that has H-65 helicopters, 
which are medium, generally shipboard, short-range search and 
rescue helicopters.
    Senator Voinovich. And those have been modernized too I 
understand?
    Admiral Allen. Been re-engined, yes, sir, to have better 
endurance and more power.
    We also operate two facilities in the summer, as you 
correctly noted--one at Waukegan, IL, the other one at 
Muskegon, MI--to cover the summer months. Muskegon is supported 
out of Air Station Detroit. Waukegan is supported out of Air 
Station Traverse City.
    In addition to those aviation facilities, we have small 
boat stations that ring Lake Michigan, as you know, every 20 or 
30 miles. So we look at the search-and-rescue system as a 
collective response capability.
    Senator Voinovich. So up in like Lake Erie you've got one 
in Marblehead.
    Admiral Allen. Yes, sir.
    Senator Voinovich. Then I think you've got one in 
Cleveland, and you have one at Fairport Harbor. What you're 
saying is that you do have the capability?
    Admiral Allen. Yes, sir. In fact, the Great Lakes are 
probably our most densely populated coastline with search and 
rescue stations as far as the distance between them in the 
United States.
    Our plan was to replace the H-65 helicopters in Traverse 
City with H-60 helicopters, which have longer range and more 
endurance, but more importantly, they have de-icing capability 
for the winter operations up there. So in the winter, rather 
than having the H-65s, which have shorter range and no de-icing 
capability, we would have long-range helicopters capable of 
covering the entire area much better than the 65s would.
    The offset of that is not having the short-range 
helicopters available where we already have search-and-rescue 
stations in those few months during the summer.
    Senator Voinovich. But the fact of the matter is that 
you're confident that, because we have so many of your----
    Admiral Allen. Small boat stations.
    Senator Voinovich [continuing]. Stations located, where if 
somebody were in need that there's enough of those that they 
could probably get out there and take care of that?
    Admiral Allen. Yes, sir. We look at the entire system and 
the ability to get somebody on scene in a certain period of 
time, and that includes being able to get a boat out there, 
yes, sir.
    Now, I would have to tell you there's a problem with the 
budget submission. The problem is that one of the helicopters 
that was intended to be transferred to Traverse City, the long-
range H-60, crashed while returning from security operations in 
the Vancouver Winter Olympics in Utah. Right now, the offsets 
that we would make to do that are not available, absent more 
resources and taking a look at our helicopter mix.
    So we're going to have to figure out how to work through 
that. We provided briefings to your staff and are happy to 
answer questions for the record. But we're going to have to 
deal with the current H-60 inventory before we can figure out 
whether or not this remains a viable plan.
    Senator Voinovich. I'd like to have that summary, and so, I 
am sure, would the two Senators from Michigan.
    Thank you.
    Senator Byrd. Senator Lautenberg.
    Senator Lautenberg. Thank you, Mr. Chairman, for holding 
this important hearing. But if I might divert for just a minute 
to say to you that our hearts go out to those in West Virginia 
who have lost their lives. It's a terrible tragedy and it's 
heartbreak across America as well as within the State of West 
Virginia. Thank you for your leadership and your service.
    Admiral Allen, I tried retirement and I didn't like it. We 
thank you, sir, for your distinguished service, and all the 
Coast Guard's people for their bravery and courage and ever 
readiness to take on more assignments.
    That's the paradox here. We continue to give the Coast 
Guard more and more assignments.
    Mr. Chairman, I ask unanimous consent that my opening 
statement be put in the record.
    Senator Byrd. Without objection, it is so ordered.
    [The statement follows:]
           Prepared Statement of Senator Frank R. Lautenberg
    Mr. Chairman, my home State of New Jersey is a prime terrorist 
target. In fact, according to the FBI, the most ``at-risk'' area in the 
entire United States for a terrorist attack is the two-mile stretch 
between Newark Liberty International Airport and the Port of Newark.
    That is why I am concerned about cuts to the Coast Guard in the 
President's proposed budget. In particular, I am concerned about a 
proposal to eliminate five Maritime Safety and Security Teams--
including one at the Port of New York/New Jersey.
    These teams are vital. They protect sensitive coastal areas from 
terrorists and can be rapidly deployed by air, sea or ground. These 
counterterrorism units were created after September 11th and are 
strategically located at high-risk ports across the country. Without 
this counterterrorism team at the Port of New York/New Jersey--the 
Coast Guard's ability to protect this sensitive area will be curtailed.
    Our port is the largest port on the east coast--and maintaining 
safety there is critical to our whole region and country. Preventing 
another terrorist attack from occurring within our borders is our 
solemn duty--and the Coast Guard plays a vital role in that effort. But 
the Coast Guard is consistently put at the back of the line for 
resources--and it is consistently forced to do more with less. I look 
forward to working with the rest of this subcommittee to make sure the 
Coast Guard has the funding it needs.

                 RESPONSE DURING OIL-DRILLING ACCIDENTS

    Senator Lautenberg. Thank you.
    I ask you this. Senator Voinovich asked about the marine 
safety and security teams, very, very concerned about that. New 
Jersey has the questionable distinction of having the most 
dangerous 2-mile stretch in the country, declared by the FBI, 
for a terrorist attack, between our airport, Newark, and our 
harbor, the second largest harbor in the country, largest on 
the east coast.
    I'm not happy, as you are aware, sir, that we are closing 
the security unit at the Port of New York. I heard your 
explanation on New York and relying more on a location in 
Boston to take care, to help us protect our area, and I know 
that I heard what you said and there was a term of art, 
Admiral. You said these were necessary reductions. I know that 
you are loyal to the demands made on you, but I think the 
question about whether they were necessary in terms of 
functioning or budget, I'm not going to ask you to answer that, 
but we'll make our own determination here.
    I ask you that if we start drilling off the northeast 
coast, the east coast, do we need more people for containment 
and pollution fighting or in the event of an accident? We know 
that things do happen. Six months ago off the coast of 
Australia, a drilling accident covered 10,000 square miles and 
the pollution traveled hundreds of miles. Would the Coast Guard 
need more people prepared to arrest the effects of a problem 
there?
    Admiral Allen. Senator, that's a great question, and three 
major players involved in an operation offshore like that have 
to be taken into account. By the way, I would tell you I've had 
discussions about this with Department of the Interior 
Secretary Salazar, Department of the Interior Deputy Secretary 
Hayes and the head of the Minerals Management Service, which we 
recently signed a memorandum of understanding with.
    The three big players are the Minerals Management Service, 
which has the responsibility to inspect for proper response 
equipment; the United States Coast Guard, which, as you know, 
has the responsibility under the Oil Pollution Act of 1990 to 
be the Federal on-scene coordinator and coordinate response 
operations; and the responsible party himself, and that usually 
is exercised through an oil spill response organization.
    So, as the drilling takes place, our captain of the port 
that cover those areas that have the responsibility will have 
to do an assessment, and those operating units will have to 
present adequate oil spill response plans that have to be 
approved by an area committee that is made up by local port 
stakeholders as well as the State and the other interests, Fish 
and Wildlife Service, other trustees.
    We go through that iterative process each time something 
changes in the port zone, and that would be also for something 
like an offshore liquefied natural gas facility or a wind farm 
or things like that. So it is scaleable. It will be required as 
a condition of the plans. If there is enough drilling and 
enough of a requirement for us to do our oversight 
responsibilities, that could drive the personnel requirements, 
yes, sir.

                                 PIRACY

    Senator Lautenberg. We always find ways to give assignments 
to the Coast Guard. First of all, your weakness is your skill. 
You're too good. So we just give it to Coast Guard, whatever it 
is, including pollution, trash in the sea, piracy. Does piracy 
put a little extra requirement for Coast Guard?
    Admiral Allen. Yes, sir. We're augmenting the U.S. Navy off 
the Horn of Africa in doing boarding, sir.

                            ILLEGAL FISHING

    Senator Lautenberg. How about illegal voracious fishing 
within our territorial limits by foreign vessels? Is that a 
problem for you?
    Admiral Allen. I'd say the number one problem is in Senator 
Murkowski's State, where we deal with the boundary line between 
Russia and the United States. And there are fleets on both 
sides watching what's going on up there; also there are safety 
issues associated with the fleet.
    Senator Lautenberg. So Admiral, we look: Wherever Coast 
Guard presence can be of value, your people are there. And I 
salute you. I was in Haiti a few weeks ago and saw the 
devastation that followed the earthquake. I commend you and the 
Coast Guard for their quick response to the needs in Haiti. As 
ever, we look to the Coast Guard to solve our problems. But the 
paradox, Mr. Chairman, is how do you ask more when you give 
less?
    Thank you.
    Senator Byrd. Thank you, Senator Lautenberg.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    Admiral Allen, we appreciate your cooperation with our 
subcommittee and your appearance here. I'm personally impressed 
with the service that you have rendered to the country in your 
capacity as Commandant. We appreciate everything you've done 
for the gulf coast, too, in connection with Hurricane Katrina 
and other disasters that have occurred there.
    I think the first time I saw you was aboard an aircraft 
carrier that was anchored right there in New Orleans in the 
Mississippi River. That was your command headquarters and base 
of operation for helping to save lives, people whose lives were 
in danger in that terrible hurricane. But in planning for 
rebuilding and recovery, we appreciate all of your important 
efforts in that regard.

                    NATIONAL SECURITY CUTTER PROGRAM

    I know that you're also looking at the Northrop Grumman 
shipyard in Pascagoula which is building the national security 
cutter, which as I understand it will be the most advanced, 
modern, technologically capable ship in the Coast Guard fleet. 
Could you give us a status report on that program? Is it 
proceeding as you had hoped it would and what are the likely 
requests that the subcommittee should consider for funding in 
this next bill that will help sustain that acquisition program?
    Admiral Allen. Yes, sir, and thank you for the question. As 
I noted in my opening statement, we've had a tremendous 
improvement in the overall quality in preparing the second 
ship, the Waesche, to be ready for operations. We will 
commission the Waesche on the 7th of May out in Alameda, so 
we're very pleased with that.
    The third ship, the Stratton, is somewhere between 30 and 
40 percent complete right now. We hope in the third quarter of 
this fiscal year to put the fourth ship under a firm fixed 
price contract. Early on, one of the challenges with this 
program was to establish a technical baseline, make some design 
changes that would ensure a 30-year service life for the hulls 
and then get those ships into a fixed price environment. We are 
trying to do that right now.
    If you were to ask about challenges and things we're 
dealing with, one of them right now is the combination of Navy 
and Coast Guard work that's going on at the shipyard in 
Pascagoula. It's really imperative that the Coast Guard and the 
Navy work very closely together regarding labor rates to make 
sure that we are synchronized, so that one of us is not above 
or behind the other one. There's an unequal loading as far as 
the burden share on the labor cost. We both understand the 
interplay between the Navy construction and the Coast Guard 
construction.
    On the other hand, the shipyard and Northrop Grumman have 
to understand that this is a firm fixed-price contract. They 
have to control costs, and they have to give us an offer that 
is legitimate in response to our proposal. So we're working 
that right now.
    The final challenges we're dealing with are changes to 
outyear funding that change our acquisition program baseline 
and change those assumptions. Our original assumption was that, 
in any particular year, we would fund one ship and a long lead 
time for the next ship so we would not break production. Given 
the constraints on the budget this year, we have one ship 
funded, and that is breaking the pattern in the acquisition 
baseline and will cause us to make adjustments. And we may see 
some cost increases as a result of that. So that is a second 
challenge we're facing, sir.
    Senator Cochran. I know that these ships are replacing I 
guess the high endurance cutters that you are planning to 
retire. Are there maintenance costs that are associated with 
continuing those ships in operation, or what capabilities does 
the national security cutter have that are not available to you 
with the high endurance cutter?
    Admiral Allen. Yes, sir. We're kind of caught between a 
rock and a hard place here. If I could go back to the earlier 
question about decommissioning two cutters without replacement, 
the longer we keep these cutters in operation, the more costly 
they are to maintain. But if we don't maintain them in service, 
then we're going to take a cutter hour gap. We have to make the 
risk tradeoffs and allocate the hours.
    In the mean time, we need the new ships built as quickly as 
possible. So the answer is the high endurance cutters that are 
meant to be replaced by national security cutters are getting 
more expensive every year to maintain. At some point, there's a 
breaking point between how many you keep in commission and how 
many you decommission and when the new ones are coming on.
    From an operational effectiveness standpoint, you would 
like to have a ship be replaced by a ship without a gap. If we 
do that, that's going to require increased funding because the 
maintenance costs are higher. If we don't do that and we 
decommission them to avoid those increases in maintenance 
costs, then we're going to be dealing with a deficit of program 
hours that has to be managed by our operational commanders. 
That's the horns of the dilemma that we're on, sir.

                        UNMANNED AERIAL SYSTEMS

    Senator Cochran. I think one of the ways the Coast Guard 
has been looking at taking up some slack is using unmanned 
aerial systems. What is your assessment of that as an efficient 
and capable system? Do you plan to continue to look to the Fire 
Scout or some of these other platforms? Stark Aerospace has a 
Heron that I understand is performing and is a capable 
platform. What is your assessment of that as a way to deal with 
your problems?
    Admiral Allen. Yes, sir. We've always anticipated that our 
Deepwater fleet would be augmented by high-altitude unmanned 
aerial systems (UASs) and vertically launched UASs off of the 
national security cutter. As you know, we've been partnering 
with the Navy in research and development regarding Fire Scout. 
One of the things we've had to do is convert the Navy's version 
of Fire Scout and put a maritime radar in it for the purposes 
that we would need it for.
    The Navy just deployed Fire Scout on a drug patrol in the 
eastern Pacific and were successful in maintaining covert 
surveillance on a go-fast boat and in getting the first seizure 
ever based on surveillance provided by an unmanned system. So 
we know that it adds value out there.
    On the high-altitude side, we are working with Customs and 
Border Protection (CBP) as CBP is working through its Predator 
program. CBP has put a maritime radar into its maritime variant 
that has been tested off of Florida recently with superior 
results. We need to move these boats to programs of record, get 
a funding stream and decide where we want to go. We're in the 
test and evaluation mode of that. So far, we've had very, very 
close cooperation with the Navy on the vertically launched UASs 
and with CBP on the Predator.
    We are looking at Heron, Eagle Scan, and other types of 
UASs that are out there and will continue to assess all of 
those and mitigate risks as we move forward. But we certainly 
contemplate UASs being involved in the mix, sir.
    Senator Cochran. Thank you.
    Thank you, Mr. Chairman.
    Senator Byrd. Thank you, Senator.
    Senator Murkowski.

                     RESPONDING TO CRISES IN ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    Admiral, thank you for your service. I don't know that we 
can say it strongly enough. For those of us around the 
subcommittee here, we certainly appreciate it. But on behalf of 
the people of Alaska, I sincerely extend my appreciation.
    There have been a lot of comments about the Coast Guard's 
role in responding to crisis, whether it's in Haiti or 
Hurricane Katrina and Rita, and the exemplary role that you 
fill. I think Alaskans know and love the Coast Guard not just 
necessarily when crisis hits, but on a daily basis. We've got 
some 33,000 miles of coastline and I understand that when we 
get the satellite mapping better and take in all the miles 
around every island we're up to 44,000 miles of coastline. As 
you have indicated, with changes in the Arctic and increasing 
passage in parts of the world where we have not been able to 
travel before, your jurisdiction continues to grow. So your 
contributions again on a daily basis are greatly, greatly 
appreciated.
    You have made the statement, and I appreciate it as it 
relates to the budget, that you've made decisions here to 
invest in the future. And that's good, but I'm very concerned, 
and I think you would probably share my concern, that when we 
don't invest in icebreakers we're not as an Arctic nation 
investing in our future.
    I want to understand a little bit more how we deal with 
this gap that we're referring to when we have the 
decommissioning of assets and waiting until the others come on. 
My particular interest, of course, is the Acushnet and the 
assets that are located in the District 17 region. You've 
indicated that you've got concerns as to how we cover fisheries 
enforcement. But as important as it is to invest for the 
future, we need to be able to respond to the mission of today.
    I'm very concerned as to how we fulfil the existing mission 
in District 17 in the Alaska waters with the fisheries 
enforcement, with the drug interdiction, with the search and 
rescue, and now this new role of patrolling the Arctic, 
providing for a level of security and safety up there. Can you 
give me some level of assurance as to how you do it all?
    Admiral Allen. Very adroitly, ma'am. As I stated earlier, 
one of the conundrums we have in the Coast Guard is explaining 
how we are and what we do to people because we are that 
unusual. We have multi-mission ships that can do five missions, 
so we don't have to have five ships, but we can't do all five 
missions at the same time.
    So even in a very stable or even in an increasing growth 
environment, we're always going to have a risk management 
process for how we allocate resources, because that's part of 
our value proposition to the government. What happens when our 
resources decline, for whatever reason? It's the same process 
by which we manage and allocate resources, but we have to 
decide where to assume risk in different areas.
    I can give you a couple of thresholds to talk about in 
terms of Alaska. We have a commitment to have a cutter on scene 
during parts of the year for fisheries enforcement and for 
search and rescue, what we call a 1-0 requirement. No matter 
what happens, there will be a cutter in the area someplace, and 
we would not back away from that under almost any scenario.
    The question is something else has to give, and it will be 
something like illegal, unreported, unregulated fishing in the 
middle of the Pacific, high seas driftnets or potentially drugs 
or some kind of a migrant patrol. But the theater commanders 
would have to manage that against the intelligence they receive 
and the risks that they have to manage every day. That is 
really as basic as it gets. It's a risk management, resource 
allocation issue that becomes more acute when your resources 
drop. But there are floors and thresholds that we will not go 
below, and those thresholds have to do with search and rescue 
and safety.
    So the minimum threshold for operating in Alaska would make 
sure those cutters are available during those times of year to 
meet our commitment and the forward-deployed helicopters that 
go to Saint Paul are there for rescue. We actually make 
resource tradeoffs to accomplish that. Because to have that 
second helicopter available in those winter months, which are 
the months when we need them up there, we actually move 
helicopters from down in the continental United States up 
because of the lack of helicopters in our inventory. That 
inventory will be further exacerbated by the loss of the one I 
mentioned earlier, ma'am.

                              HELICOPTERS

    Senator Murkowski. And that was going to be another prong 
to my question, is recognizing the aviation assets that we 
stage out of Kodiak, Air Station Kodiak there, and the need to 
deploy out to the fishing grounds, you've been basically 
piecing it together. I'm assuming that if you had a better 
budget that you would look to put another helicopter in there 
in Kodiak?
    Admiral Allen. In regard to an H-60, which are our long-
range helicopters with de-icing capability, there are two 
immediate requirements, in my view. The first one is to replace 
the 6028 that we lost in Utah. To do that, it would cost us 
about $15.5 million to take a Navy airframe and basically 
rebuild it to Coast Guard standards.
    Second, if I had one more incremental H-60 that I could get 
my hands on, I would send it to the 17th District to be the 
second standby helicopter for the Saint Paul area, ma'am.

                              ICEBREAKERS

    Senator Murkowski. Let me ask about the Arctic, because you 
have been truly a phenomenal leader in this area, working with 
us in so many--just really taking the lead in responding as an 
Arctic nation should. I remain concerned, though. We're moving 
forward with the Arctic study that the Coast Guard is moving. 
Navy is looking. We're looking at the deepwater port. There are 
initiatives at play here that are extremely important.
    But I guess my question to you is, recognizing that our 
heavy icebreakers are reaching the end of their service lives, 
is the Coast Guard currently positioned to address the safety 
and security missions that we know we will be faced with in the 
Arctic area as we see increased maritime activity coming up in 
these next few years?
    Admiral Allen. Senator, it's been clearly demonstrated in a 
series of studies that the baseline requirement for icebreakers 
in the United States is three. We have two heavy duty 
icebreakers, the Polar Sea and the Polar Star, and we have an 
ice-strengthened research vessel, the Healy. My problem right 
now is a readiness issue in that only two of those ships are 
operational.
    I want to thank the subcommittee and the leadership of 
Chairman Byrd because, during the last 2 years, you've provided 
us money to get Polar Star into drydock and get it fixed. So by 
2013, we should have three operational icebreakers.
    Some challenges remain after that, including funding a crew 
for the Polar Star once it comes out of drydock. That'll have 
to be dealt with in coming years.
    I think what's misunderstood about icebreakers and the 
Arctic right now is--and you stated it yourself--it's not an 
ice-free Arctic; it's an ice-diminished Arctic. Even in the 
summer up there, very large pieces of ice present a hazard to 
shipping, and wind from the proper direction can come together 
and actually create ice flows that have trapped fishing 
vessels.
    We need ice to be strengthened or icebreakers to be able to 
operate up there and provide us command-and-control platforms 
for forward basing of any mission response we would need to do, 
specifically a mass casualty response to an ecotourism cruise 
ship, as we saw off South America, or a response to an offshore 
oil spill.
    I have raised these issues, again, with Secretary Salazar 
and Deputy Secretary Hayes from the Department of the Interior, 
and we discussed it at your field hearing in Anchorage last 
year.
    The second thing, and you really hit the nail on the head, 
is the lack of deepwater ports up there. With the exception of 
a vessel that draws less than 24 feet of draft, the last two 
places where you can stop and get logistics are either Dutch 
Harbor or Kodiak. I know there's a push in Nome right now to go 
beyond 24 feet, and I've talked to the mayor about that. But 
right now off the North Slope, the lack of infrastructure to 
respond to anything is really inhibiting our ability to be 
effective up there. That ability requires us fundamentally to 
have those icebreakers for command-and-control platforms in 
addition to their ice-breaking capability.
    Senator Murkowski. Well, I share your concern about our 
preparedness and we want to work with those that will follow 
you to ensure that we are ready to the fullest extent possible.
    Again, I thank you for your service.
    Senator Byrd. Thank you, Senator.

                       C-130H VS. C-130J AIRCRAFT

    This has been a good hearing. I only have one more 
question. Over the last 4 years, the Coast Guard has lost two 
C-130 aircraft in accidents. How has the loss of these two C-
130 aircraft affected your ability to perform critical missions 
and is there a need to replace them with new aircraft?
    Admiral Allen. Senator, our C-130H models right now operate 
at what we would call programmed flight hours of 800 per year. 
When we lost the first aircraft to the accident, we actually 
kept one aircraft that we were going to decommission, so we did 
not lose those flight hours. We now have to deal with the loss 
of the 1705 in Sacramento, which is another 800 hours.
    To bring another H model out of mothballs and renovate it 
would cost about $10 million and take about 18 months. So we 
will go through an hour gap just dealing with--if we were to 
take an old aircraft and refurbish it.
    Frankly, with the six C-130Js we have in our fleet right 
now, if we were to take a look at a life cycle cost standpoint, 
our ability to sustain operations, it would be preferable to us 
if resources were available to look at another C-130J to 
replace the 1705. We start to get to the threshold where we 
could maybe have two C-130J stations, which would significantly 
enhance our performance.
    A good example right now is if a C-130H takes off from 
Hawaii to go to Guam, it's actually a 2-day trip. The C-130H 
has to stop. A C-130J can make that in one flight. So there are 
some significant advantages of the J over the H model, sir.
    Senator Byrd. Do Senators have any other questions?

                   BUDGET FOR REPLACEMENT HELICOPTER

    Senator Voinovich. I have, yes, Mr. Chairman. I'd like to 
revisit this helicopter thing. You're basically saying that one 
of the two helicopters that you were going to replace when you 
decommissioned these other ones was lost and as a result of 
that you're going to have to compensate for that. So you'll be 
coming back to the subcommittee with some plan to amend the 
budget to some other alternative.
    The question I have is have you asked for money to replace 
the helicopter that you've lost?
    Admiral Allen. Well, we've made those estimates known to 
the subcommittee and the staff that have asked for it, sir. 
Again, a replacement helicopter is critical to our current 
operations and is not budgeted right now. So if there were a 
way to provide those resources, we would appreciate that.
    Senator Voinovich. Well, I think we ought to find out about 
it.
    Then you talked with Senator Murkowski and said that this 
is the same kind of helicopter you need up in her State, 
Alaska?
    Admiral Allen. Yes, sir. We are talking about all-weather 
helicopters that have de-icing capability for harsh 
environments.
    Senator Voinovich. Now, the question is, if you did one of 
them would you stick with the proposal that you have about 
shutting down the five we've got in the Great Lakes and having 
the two?
    Admiral Allen. We'd have to make a tough call there, sir. 
I'll tell you why. There's another dimension to this that I 
didn't bring up earlier. When we don't have those helicopters 
involved in search and rescue during the winter, we actually 
move them down South and put them on the backs of cutters and 
get deployable days at sea out of them to be able to do drug 
interdiction better. So there was going to be a cost in loss of 
days at sea of our deployable helicopters, had we gone ahead 
with the plan.
    So I think we have to sit back and reassess the resources 
that are available, and we need to provide you some 
alternatives, sir.
    Senator Voinovich. We'd like to get that information.
    The other thing is that there was talk about building 
another icebreaker for the Great Lakes, and we asked for a 
report from the Coast Guard in terms of would it be better to 
buy a new icebreaker or to rehab and restore and bring up to 
snuff the current vessels that are now doing icebreaking. I 
guess they're multi-use. They do buoy-tending and so forth, and 
at the same time they are good--they ice-break.
    So the question really is, do you need a new one or would 
we be better off taking the money to bring those up to quality. 
When are we going to get that report?
    Admiral Allen. Sir, we're finalizing that report, just 
going through administration review. But I think I can give you 
some highlights of it right now. I think our position is that, 
rather than go for a single additional icebreaker, taking the 
five 140-foot icebreaking tugs that are on the Great Lakes and 
bringing them up so they can operate another 10 years while we 
assess what we need to do probably is the way forward. But 
we're finalizing those recommendations right now. But that's 
where that study is going, sir.
    Senator Voinovich. The question I have is is there any 
money in the budget, this budget, to do that?
    Admiral Allen. We're just finishing the assessment right 
now, so that would have to be in a future year's budget. I 
think we're looking at, over about a 5-year period, about $131 
million to extend the service life of all 5 for 10 years, sir.
    Senator Voinovich. So basically at this stage of the game 
and in terms of this budget, we're going to stay with the 
status quo, you finish your report, and the money for rehabbing 
these vessels would be in the next budget?
    Admiral Allen. That would be a programming decision in 
either 2012 or beyond, yes, sir.
    Senator Voinovich. Okay.

                                 HAITI

    Admiral Allen. Sir, if I could. You asked an earlier 
question about Haiti and our resource requirements related to 
that. Our costs related to Haiti are $45 million, and they are 
covered in the administration's supplemental request, sir.
    Senator Voinovich. So you're all set in that regard.
    Thank you, Mr. Chairman.
    Senator Byrd. Thank you, Senator.
    Senator Cochran, do you have any further questions?
    Senator Cochran. Mr. Chairman, I have nothing further, 
except to congratulate the Commandant for the great job he's 
done.
    We're going to miss you when you retire.
    Admiral Allen. Thank you, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Byrd. Admiral Allen, I thank you for your 
testimony. I thank you for your responses to our questions. We 
look forward to your rapid response to our written questions 
for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted by Senator Robert C. Byrd
                           small boat threat
    Question. Admiral Allen, you have stated publicly that one of our 
most serious vulnerabilities is a U.S.S. Cole-style attack within one 
of our ports or waterways. Yet the budget either cuts or zeroes out 
many of the capabilities the Coast Guard has highlighted as critical to 
countering a small boat attack.
  --Five Coast Guard maritime safety and security teams are 
        decommissioned, reducing port and waterway security patrols by 
        12,000 hours annually.
  --Acquisition funding for port operation centers and the National 
        Automatic Identification System is zeroed out.
  --The budget reduces assets and funding for the Coast Guard's 
        Maritime Security Response Team, which was developed for 
        maritime terrorism response.
    Are we no longer vulnerable to a Cole-style attack?
    Answer. The threat environment has not changed. It is highly 
dependent on intent, which has not been discerned by the intelligence 
community.
    As shown in the fiscal year 2011-2015 Capital Investment Plan, the 
Nationwide Automatic Identification System (NAIS) and Interagency 
Operations Centers (IOCs) programs are funded through their completion 
in 2014. No funding is requested for 2011 because the Coast Guard plans 
to use $17.8 million of prior year funding to continue the acquisition 
of new capability for IOCs and NAIS, which will enhance maritime domain 
awareness.
    The new regional construct for MSSTs places teams in proximity to 
international borders, major port complexes, and transportation 
infrastructure to facilitate rapid response times. Transitioning the 
MSSTs to a regional model will enable the Coast Guard to rapidly deploy 
teams of skilled professionals to ports and operating areas across the 
country based on risk and threats as needed.
    Overall, the funding requested for the Coast Guard's Ports, 
Waterways and Coastal Security Mission is $106 million (-5 percent) 
less than fiscal year 2010 enacted. Of this amount, over $75 million or 
nearly three quarters is attributable to the funding profile for 
specific asset acquisitions (RB-M, MPA, HH-65), primarily reflecting 
year-to-year variation in the planned acquisition expenditures. Those 
changes do not translate into decreased capability as the corresponding 
legacy assets continue to do the job.
                               deepwater
    Question. The original Deepwater plan to modernize the Coast 
Guard's fleet called for a mix of new assets to meet operational 
requirements, such as 8 National Security Cutters, 25 Offshore Patrol 
Cutters, and 58 Fast Response Cutters. That plan was developed several 
years ago. The Coast Guard is in the process of updating this plan 
through a ``fleet-mix'' analysis. My understanding is that the study 
has been completed. Does it suggest changes to the current mix of 
planned assets and can you describe them to us?
    Answer. The contractor has delivered the draft report and the Coast 
Guard is completing its final review. In general, the results of this 
limited study are similar to previous studies and support the Deepwater 
program of record.
                        national security cutter
    Question. Is the Coast Guard still on schedule to deliver the 3rd 
National Security Cutter (NSC) in the 4th quarter of fiscal year 2011?
    Answer. Yes.
    Question. Is the Coast Guard on schedule to make an award for the 
4th NSC this spring? What is being done on your end to ensure the best 
cost is achieved for the taxpayers?
    Answer. The Coast Guard is working towards awarding the production 
contract for NSC #4 with Northrop Grumman Ship Building (NGSB) in the 
third quarter fiscal year 2010. To accomplish this, the Coast Guard 
with the assistance of the Defense Contract Audit Agency, continues to 
conduct an extensive evaluation of NGSB's proposal using actual project 
data from the first three NSCs. Additionally, the Coast Guard is 
actively collaborating with the Navy on issues impacting affordability 
of ship construction, such as forecasting yard-wide workload to 
estimate probable overhead rates. This evaluation work is necessary to 
thoroughly prepare the contract negotiation team for the complex 
negotiations ahead. The Coast Guard plans to enter into negotiations 
with NGSB in the near future to reach a fair and reasonable price for 
the production work for NSC #4.
    Question. Your fiscal year 2011 request includes full funding for 
the 5th NSC, but includes no funding for long lead time materials for 
National Security Cutter #6. What is the estimated cost of long lead 
time materials for NSC #6?
    Answer. The fiscal year 2011-2015 Capital Investment Plan includes 
funding for a sixth NSC. No separate request will be made for any long 
lead materials.
    Question. For some acquisitions, long lead materials are funded in 
advance to maintain a planned production schedule. Does the fact that 
long lead time materials for NSC #6 are not funded in the request 
impact the cost and delivery schedule for the 6th NSC? Will the Coast 
Guard stay on track with the planned delivery schedule of one NSC per 
year?
    Answer. The fiscal year 2011 Capital Investment Plan includes 
funding for a sixth NSC. No separate request will be made for any long 
lead materials, as this type of incremental funding, with the possible 
exception of the lead asset in a procurement, is not consistent with 
OMB Circular A-11.
    The following table shows the NSC delivery schedule consistent with 
the 2010 Deepwater Implementation Plan and the fiscal year 2011-2015 
Capital Investment Plan.

------------------------------------------------------------------------
                                  Projected Contract
    National Security Cutter             Award             Delivery
------------------------------------------------------------------------
NSC 6...........................  Fiscal year 2012..  Fiscal year 2016
NSC 7...........................  Fiscal year 2013..  Fiscal year 2017
NSC 8...........................  Fiscal year 2014..  Fiscal year 2018
------------------------------------------------------------------------

                         offshore patrol cutter
    Question. Since this Subcommittee was created in 2003, funding has 
been provided at different stages for the Offshore Patrol Cutter (OPC). 
These cutters will replace the Coast Guard's fleet of aging Medium 
Endurance Cutters. However, your budget indicates that production 
funding for the first OPC will not occur until fiscal year 2015. Why is 
it taking so long to build this asset? What concerns do you have with 
the prolonged delivery schedule of the OPC's and the impact it will 
have on the legacy fleet, some of which have been operating since the 
1960s? What can be done to address these concerns?
    Answer. Initial Offshore Patrol Cutter (OPC) requirements were 
developed using fiscal year 2004 funds under the Integrated Deepwater 
Systems contract with Integrated Coast Guard Systems (ICGS) as the 
prime contractor and systems integrator. A stop work order on the 
contract delivery task order to ICGS was issued in 2006 and all 
unobligated funding appropriated for the OPC Project through fiscal 
year 2008 was rescinded.
    The OPC Project was restarted at Milestone One in January 2008 with 
the Coast Guard as the systems integrator. To reduce acquisition risks 
and enhance performance of the Coast Guard's acquisition organization, 
the OPC Project is following the deliberate acquisition process as 
outlined in the Coast Guard Major Systems Acquisition Manual.
    The project schedule depends, in part, on approval of both 
operational requirements and acquisition strategy. The start of actual 
construction depends on the time required for the design process, but 
it is currently planned in 2015. The schedule also prevents significant 
overlap with the NSC program so that these acquisition projects are 
appropriately staffed.
    The primary concern with a prolonged OPC delivery schedule is the 
extended reliance on the legacy Medium Endurance Cutter (MEC) fleet. 
Based on current projections, the 210-foot and 270-foot MECs will 
average 45 and 33 years old, respectively at the time the first OPC is 
being built, as such, it is critical that these cutters are replaced as 
quickly as possible.
    The Coast Guard initiated a Mission Effectiveness Project (MEP) for 
MECs to mitigate the impacts of the OPC delivery schedule. MEP was not 
designed to increase the ships' service lives, but to reduce the 
maintenance expenditures and restore capacity target levels. The Coast 
Guard will continue to develop and execute a maintenance plan that 
bridges the time necessary to deliver OPCs.
                             workforce plan
    Question. In the explanatory statement accompanying the fiscal year 
2009 Appropriations Act for the Department of Homeland Security, this 
Subcommittee required the Coast Guard to submit a ``Workforce Action 
Plan'' to the Committee. The intent of the directive was to gain a 
better understanding of the Coast Guard's workforce requirements in 
relation to mission responsibilities that have expanded dramatically 
under the intensity of a post 9/11 environment. What we received was an 
incomplete plan that simply summarized the fiscal year 2010 request. 
The plan should have included a complete workforce gap analysis, the 
type of personnel needed to fill the gaps; and a plan, including 
funding and a timeline to fill the gaps. I wrote to you on October 29, 
2009, asking you to revise the plan by fully addressing the 
congressional requirements. To date, we have not received a response. 
Will you commit to submitting a revised plan to the Committee before 
you leave your post as Commandant?
    Answer. The Coast Guard appreciates the continued interest 
regarding staffing levels in a post 9/11 environment, and is currently 
in the final stages of providing a response to Senator Byrd's letter.
               budget impact of helicopter crash (hh-60)
    Question. Your budget proposes to relocate four H-60 helicopters to 
the Great Lakes region to improve domestic air operations in that 
region. On March 3, 2010, one of these helicopters crashed in the 
mountains of Utah. Fortunately, the crew survived. However, the 
airframe did not. How does this recent event affect your budget 
request? What are your plans to replace the helicopter and what is the 
cost?
    Answer. With the loss of the MH-60 that was planned for re-location 
to Michigan, the fiscal year 2011 proposal to re-allocate only wing 
assets became challenging because Air Station Traverse City requires 
four H-60 aircrafts. The Coast Guard is currently working with the 
Administration to evaluate options with regard to the proposed fiscal 
year 2011 rotary wing budget proposal.
                   high endurance cutter sustainment
    Question. In fiscal year 2010, Congress appropriated $4 million to 
begin work on a maintenance effectiveness project for the Coast Guard's 
High Endurance Cutters. A similar program for the Medium Endurance 
Cutter fleet has been highly successful in increasing its fully-capable 
mission availability. What is the current policy as it pertains to all 
12 of the legacy High Endurance Cutters? Given your significant cutter 
hour shortfall, are you considering a maintenance effectiveness program 
as directed by Congress?
    Answer. The $4 million appropriated in fiscal year 2010 will be 
used to assess and evaluate the High Endurance Cutter (HEC) fleet and 
determine the most effective use of funds to operate the vessels until 
replaced by National Security Cutters. The HEC assessments will 
document the material condition of select cutters and the results will 
determine future maintenance requirements. The Coast Guard recognizes 
the need to invest in sustaining HECs in advance of replacement. Toward 
this end, $20 million was appropriated from supplemental appropriations 
(Southwest Border initiative and Recovery Act) to fund deferred 
maintenance of these vessels. This supplemental funding has targeted, 
for example, the top six mission degraders of the fleet to extend the 
life of those systems.
                     expenditure plans and reports
    Question. It has been 5 months since the President signed into law 
the Department of Homeland Security Appropriations Act. Within that 
Act, Congress required several expenditure plans and reports from the 
Coast Guard. The Committee highlighted three such reports as critical: 
a 5-year update for Deepwater, a comprehensive 5-year Capital 
Investment Plan for fiscal years 2011-2015, and Quarterly Acquisition 
Reports. Congress requires these reports in an effort to ensure that 
the Coast Guard is providing the appropriate amount of oversight and 
discipline to complex programs. We are now in the third quarter of 
fiscal year 2010 and we still haven't received these reports.
    It is difficult for this Committee to make important resource 
allocation decisions to address critical homeland security issues for 
fiscal year 2011 if the Coast Guard has not informed us of how the 
dollars in the current year are being spent.
    Do I have your commitment that we will receive these reports no 
later than April 30th?
    Answer. The 5-year Capital Investment Plan was submitted in 
February 2010, with the fiscal year 2011 President's budget. The 2010 
Comprehensive Deepwater Implementation Plan, which contains the 5-year 
update for Deepwater is currently undergoing final review. The Second 
Quarter Acquisition Report to Congress reports on acquisition project 
status through March 31, 2010 and was delivered to your Committee staff 
on May 5, 2010.
                national automatic identification system
    Question. The budget provides no acquisition funding for the 
Nationwide Automatic Identification System (NAIS). The Maritime 
Transportation Security Act of 2002 required certain vessels operating 
in the navigable waters of the United States to be equipped with, and 
operate, an automatic identification system (AIS). The Coast Guard has 
been developing NAIS, which is critical to identify, track, and 
communicate with marine vessels that use AIS. The Coast Guard estimates 
that the system won't be completed until 2015; 13 years after Congress 
mandated that vessels be equipped with AIS.
    Why isn't this program a higher priority given the need to enhance 
the Coast Guard's Maritime Domain Awareness?
    Answer. NAIS capability has been deployed to 58 port areas around 
the Nation and is providing the Coast Guard and other Federal agencies 
with greater awareness of the vessels operating in and near U.S. 
waters. The project will use prior and future year funding, shown on 
the Capital Investment Plan, to make the current system, deployed as a 
rapid prototype, a permanent solution for enhancing Maritime Domain 
Awareness in the Nation's ports. No funding is requested for fiscal 
year 2011 because the Coast Guard plans to use $7.8 million of prior 
year funding to continue the NAIS acquisition.
                                 ______
                                 
             Question Submitted by Senator Mary L. Landrieu
    Question. The Sentinel Class Fast Response Cutters (FRCs) will 
provide the Coast Guard with a new generation of patrol boats to 
support its homeland security, maritime safety, law enforcement, and 
interdiction missions. The fiscal year 2011 budget request includes 
$240 million for acquisition of FRCs.
    Can you please explain the importance of this particular funding 
request, the role these cutters will play within the Coast Guard's 
fleet, and their capability to support the Coast Guard's overall 
mission?
    Answer. The $240 million identified in the fiscal year 2011 budget 
request for the Sentinel Class Fast Response Cutter (FRC) acquisition 
project will permit the continuation of the contract awarded to 
Bollinger Shipyards, Inc. through the award of option #3 for production 
of hulls #9-12, as well as funding for associated initial sparing and 
project costs.
    The FRC project is critical to replacing the Coast Guard's fleet of 
110-foot Island Class patrol boats. The Sentinel class will possess an 
improved sea keeping ability, resulting in better habitability and full 
mission capability in higher sea states. Additionally, enhanced 
interoperability; Command, Control, Communications, Computers, 
Intelligence, Surveillance, and Reconnaissance (C4ISR); common 
operating picture; and sensors will improve surveillance and 
identification performance over the existing capabilities of the legacy 
110-foot patrol boat.
    With its high readiness, speed, adaptability, and endurance, the 
FRC will respond quickly and effectively to emerging security and 
safety issues, essential to achieving mission success in the Coast 
Guard's following Congressionally-mandated missions:
  --Search and Rescue;
  --Living Marine Resources;
  --Marine Environmental Protection;
  --Ports, Waterways and Coastal Security;
  --Drug Interdiction;
  --Migrant Interdiction;
  --Defense Readiness; and
  --Other Law Enforcement.
                                 ______
                                 
           Questions Submitted by Senator George V. Voinovich
    Question. How will other Coast Guard districts be affected by 
providing the Blackhawk helicopters to the Great Lakes, as proposed in 
the budget? Will their capabilities be significantly diminished?
    Answer. The fiscal year 2011 budget request reallocates two H-60s 
based in Clearwater, FL and two H-60s based in Elizabeth City, NC to 
Air Station Traverse City. These four aircraft replace five H-65s, 
which will be removed from service. Additionally, the proposal closes 
two seasonal (Memorial Day to Labor Day) air facilities in Muskegon, MI 
and Waukegan, IL.
    The aircraft proposed to be moved from Elizabeth City, NC, will 
eliminate tactical vertical insertion as part of advanced interdiction 
organic helicopter support for training and operations with the Coast 
Guard Maritime Security and Response Team (MSRT). Although Coast Guard 
has been training to add this capability to its prototype security 
response force, MSRT, in the event of a significant incident involving 
federal response forces, the responsibility for this capability 
primarily resides with the Department of Justice tactical units.
    While the aircraft proposed to be moved from Clearwater, FL, will 
reduce Seventh District's MH-60 capacity by two, these MH-60 
helicopters are assigned to locations within The Commonwealth of the 
Bahamas to support interagency counterdrug missions for Operation 
Bahamas, Turks, and Caicos (OPBAT). A third MH-60 will remain to assist 
the multiagency OPBAT effort.
    The 2011 Rotary Wing Re-alignment proposal maintains Search and 
Rescue (SAR) mission readiness requirements at these locations, 
enhances CGAS Traverse City capabilities, and enables closure of 
seasonal Air Facilities in Muskegon, MI and Waukegan, IL. However, due 
to the loss of a MH-60 on March 3, 2010, that was planned for re-
location to Michigan, the fiscal year 2011 proposal to re-allocate 
rotary wing assets becomes challenging because Air Station Traverse 
City requires four H-60 aircraft. The Coast Guard is currently working 
with the Administration to evaluate options with regard to the proposed 
fiscal year 2011 rotary wing budget proposal.
    Question. How will the fiscal year 2011 budget reductions impact 
our participation in critical bilateral agreements like Shiprider, 
which the U.S. Coast Guard and Royal Canadian Mounted Police have 
worked so hard to reach? Will we need to lessen our commitment to such 
programs?
    Answer. The bilateral Shiprider agreement between the United States 
and Canada has not yet entered into force. It will enter into force 
following ratification by the Canadian Parliament, which may occur by 
the end of calendar year 2010. There are currently no foreseen impacts 
on Shiprider or other similar programs under current bilateral 
agreements. The costs associated with embarking Shipriders are minimal 
and the programs should be unaffected.
    Question. Following the earthquake in Haiti, I was not surprised to 
see that the Coast Guard was first on-scene to assist with the rescue 
effort (within 18 hours). It is clear from news reports, and your 
testimony, that the response did not come without a high cost to the 
Coast Guard. What impact did the response have on mission capabilities 
in District 7, and throughout the Coast Guard? Are the severely 
affected assets operational at this time?
    Answer. Numerous cutters, planes and deployable teams responded to 
Haiti during the critical hours, days, and weeks after the earthquake. 
Consistent with Coast Guard's well-developed surge planning and 
capabilities, these assets were shifted from other mission areas within 
District Seven or brought in from other districts. The mission areas 
affected by the shift in assets were counterdrug mission and living 
marine resources in Districts Five and Eight. The majority of these 
assets have been returned to their normal operations.
    The Coast Guard operates one of the oldest fleets in the world. Of 
the 12 major cutters assigned to Haiti relief operations, 10 cutters, 
or 83 percent, suffered severe mission-affecting casualties, two were 
forced to return to port for emergency repairs, and one proceeded to an 
emergency dry dock. Air assets were diverted away from evacuation 
efforts to deliver repair parts. While a majority of the affected 
assets have had immediate repairs completed and all have returned to 
operation, those repairs did not address the longstanding suboptimal 
condition of ships that are well past their service life.
    Question. On March 23, 2010, the President submitted to the 
Congress a request for $2.8 billion in fiscal year 2010 emergency 
supplemental appropriations to provide for costs associated with relief 
and reconstruction support for Haiti following the devastating 
earthquake in January, including an additional $45 million for Coast 
Guard operating expenses for emergency relief, rehabilitation, and 
other expenses related to Haiti. What period of time does this funding 
request cover? Does it go through the date when the Coast Guard expects 
to cease its Haiti operations? If not, how long does the Coast Guard 
expect to maintain these operations and what funds, in addition to 
those requested, are needed to cover that period?
    Answer. The $45 million emergency supplemental request covered a 
90-day period from January 13 through April 14, 2010.
    As part of the Coast Guard's migrant interdiction mission, 
Operation Southeast Watch--Haiti (OPSEW-H) continues as Coast Guard 
assets maintain an increased surface presence to deter potential mass 
migration. The Coast Guard continually monitors indications and 
warnings for mass migration and adjusts assets as required.
    No changes are needed to the supplemental request.
    Question. Last August, the Coast Guard proposed a Ballast Water 
Discharge Standard to combat the introduction and spread of invasive 
species. Does the Coast Guard expect to finalize a rule in fiscal year 
2011? Can you tell me how much money is in the Coast Guard's fiscal 
year 2011 budget to further develop this proposed rulemaking and 
implement it?
    Answer. The Coast Guard is working diligently to finalize its 
proposed Ballast Water Discharge Standard (BWDS) rulemaking. The Coast 
Guard is working towards publishing a BWDS final rule by the end of 
December 2010. For more information please go to Office of Information 
and Regulatory Affairs (OIRA) link: http://159.142.187.10/public/do/
eAgendaViewRule?pubId=201004&RIN=1625-AA32.
    The full cost of the proposed rulemaking and implementation is 
under development. The fiscal year 2011 President's budget provides 
resources commensurate with 2010 enacted for rulemaking activities 
under which BWDS is performed.
    Question. In a January letter that I wrote with some of my other 
Senate colleagues to the Coast Guard, we said that we wanted to be sure 
that the Coast Guard had the necessary resources in its budget to 
ensure that your proposed rulemaking can be implemented in a timely 
fashion. The letter pointed out that the proposed rulemaking relies on 
non-governmental laboratories to test ballast technologies and that the 
Coast Guard has already said that additional installations and 
modifications are needed at these labs in order to comply with the 
Coast Guard type approval test procedures. However, in the Coast 
Guard's response, you stated that it would be inappropriate and a 
conflict of interest for the Coast Guard to fund the development of 
these labs. Can you explain this conflict of interest and why you don't 
believe that the Coast Guard should provide funding even though your 
proposed rulemaking relies on these labs for testing?
    Answer. The manufacturer of ballast water treatment technology must 
use a laboratory to validate compliance with Coast Guard standards and 
protocols. If the Coast Guard funds the laboratory, then a relationship 
between the Coast Guard and the laboratory forms--a relationship that 
could create the appearance of undue governmental influence over the 
laboratory's evaluation of the manufacturer's technology or, 
potentially, actual governmental influence over the laboratory's 
evaluation.
    Question. Last year, the Administration proposed and Congress 
appropriated significant funds for Great Lakes restoration. Several 
agencies, including the Coast Guard, received funding through this 
initiative. How much fiscal year 2010 money will the Coast Guard 
receive and for what activities? How much does the Coast Guard plan to 
receive in fiscal year 2011?
    Answer. Of the appropriated amount to EPA under Public Law 111-88, 
$6.4 million is being executed by the Coast Guard for the following 
activities:
  --Research, Development, Testing and Evaluation (RDT&E) Invasive 
        Species--reducing invasive species introductions through 
        ballast water treatment ($3.5 million);
  --(RDT&E) Toxic Substances and Areas of Concern--response to spills 
        of oil in ice in fresh water ($0.1 million); (RDT&E) Toxic 
        Substances and Areas of Concern--recovery of submerged oil 
        ($0.3 million); and
  --(Environmental, Compliance & Restoration) Toxic Substances and 
        Areas of Concern--investigate and remediate potential sources 
        of toxic substances on Coast Guard property in the Great Lakes 
        Area ($2.5 million).
    The Coast Guard anticipates it will receive $2.2 million from the 
EPA appropriation in fiscal year 2011.

                         CONCLUSION OF HEARINGS

    Senator Byrd. With that, any further questions?
    If not, the subcommittee stands in recess subject to the 
call of the Chair.
    [Whereupon, at 3:50 p.m., Tuesday, April 13, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
